<html>
<title> - FULFILLING A KEY 9/11 COMMISSION RECOMMENDATION: IMPLEMENTING BIOMETRIC EXIT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                   FULFILLING A KEY 9/11 COMMISSION 
              RECOMMENDATION: IMPLEMENTING BIOMETRIC EXIT

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2013

                               __________

                           Serial No. 113-37

                               __________

       Printed for the use of the Committee on Homeland Security




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE

86-486 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah, Vice Chair      Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. John Wagner, Acting Deputy Assistant Commissioner, Office of 
  Field Operations, Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement of David F. Heyman, John P. Wagner, 
    and John P. Woods............................................     9
Mr. John Woods, Assistant Director, Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement of David F. Heyman, John P. Wagner, 
    and John P. Woods............................................     9
Ms. Rebecca Gambler, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

 
                   FULFILLING A KEY 9/11 COMMISSION 
              RECOMMENDATION: IMPLEMENTING BIOMETRIC EXIT

                              ----------                              


                      Thursday, September 26, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:31 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Palazzo, Stewart, 
Jackson Lee, and O'Rourke.
    Also present: Representative Smith.
    Mrs. Miller. We are going to start on time here this 
morning. So the Committee on Homeland Security, the 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine the proper 
path forward in establishing a viable biometric exit system.
    We are so pleased to be joined by a very distinguished 
panel of witnesses today: John Wagner is the acting deputy 
assistant commissioner of the Office of Field Operations, U.S. 
Customs and Border Protection; John Woods, who is the assistant 
director of Immigration and Customs Enforcement; and Rebecca 
Gambler, director of homeland security and justice issues with 
the Governmental Accountability Office, the GAO.
    Thank you all so much for coming. I will give a more formal 
introduction in just a moment.
    Twelve years ago this month 19 terrorists successfully 
penetrated our border and visa security defenses. They hijacked 
four airplanes and conducted a terrible, terrible attack that 
took the lives of almost 3,000 innocent Americans.
    That act of terrorism is the very reason the Department of 
Homeland Security exists, and really why this committee was 
created as well, subsequently, to prevent another terrorist 
attack on the homeland. Along the walls we see photographs of 
the aftermath of those attacks to remind us each and every day 
of why we are here and, most importantly, what the cost of 
failure is.
    We should never forget what happened on that Tuesday in 
September to so many of our fellow Americans or fail to 
remember the victims and the heroes of the first responders 
during that tragedy. I think one of the ways that we can honor 
those who lost their lives is to harden our defenses and to act 
on the lessons learned from that horrible day.
    Congress established the 9/11 Commission to identify ways 
that we could do that, and the report issued by that commission 
identified the vulnerabilities that we need to address, and 
Congress has taken substantive actions on the majority of their 
recommendations. However, the recommendation to establish a 
biometric entry-exit system stands out as one of the largest 
unfinished border security challenges that DHS has yet to 
tackle in a really meaningful way.
    This is a challenge that falls squarely within the 
jurisdiction of this committee. It is a challenge that this 
subcommittee will confront through proper oversight as well as 
legislation.
    According to the 9/11 Commission Report, a biometric exit 
capability could have assisted law enforcement and intelligence 
office officials in August and September of 2001 in conducting 
a search for two of the 9/11 hijackers that were in the United 
States on expired visas. We will not be able to fully close the 
holes exploited by the 9/11 hijackers or curtail the ability of 
terrorists to travel to the United States without the ability 
to know with some degree of certainty if visa holders leave, if 
they leave our country in accordance with the terms of their 
visa.
    We have pushed our border out by conducting more checks 
overseas before passengers obtain a visa, before they board an 
airplane or present themselves to a CBP officer at a port of 
entry, a layered approach that increases our chances of 
preventing terrorists from every coming to America. Today we 
collect more information on foreign travelers than ever before. 
This allows CBP, through the National Targeting Center, to use 
complex targeting rules which examine travel patterns, allowing 
agents to discern problems with travel documents that might 
raise red flags.
    That, however, is only one side of the issue. Without a 
viable biometric exit system, visa holders can overstay their 
visa and disappear into the United States, just as four of the 
9/11 hijackers were able to do.
    In this committee we have worked very hard to come up with 
a common-sense solution to secure the Southwest Border, but 
that is only part of the problem. If as high as 40 percent of 
all illegal aliens come in through the proverbial front door 
then securing the border means having a biometric system that 
gives the Nation the ability to identify overstays. Once we 
identify overstays we must dedicate the resources necessary to 
promptly remove those in the country illegally; otherwise we 
could put our citizens at risk.
    Last week we introduced H.R. 3141, the Biometric Exit 
Improvement Act. I introduced that along with Ms. Sanchez of 
California; and our Ranking Member Jackson Lee; former Chairman 
Peter King; our Chairman of our full committee, Mr. McCaul, of 
Texas; and Ranking Member Thompson, as well. So we had a very 
bipartisan introduction of this bill, which we hope to address 
the challenge of visa overstays. Under this bill, biometric 
exit would be required for all pedestrians who cross a border 
within 3 years and at all air and sea ports of entry within 5 
years.
    I want to be very clear up front that the goal of this 
legislation is to make sure that we can identify foreigners who 
overstay their visas, and this legislation does not allow the 
Government to collect biometrics on any United States citizens. 
Now I guess I am going to repeat that because we are using this 
legislation to make sure we can identify foreigners who 
overstay their visas. This legislation does not allow the 
Government to collect biometrics on any U.S. citizens.
    So I am very confident that this bipartisan bill will put 
the Nation on the right path to establishing a viable biometric 
exit system that is certainly long overdue by establishing 
tight but achievable time lines. The 9/11 Commission understood 
that the establishment of an exit system was an ambitious task, 
but they also called it an essential investment in our National 
security.
    The Biometric Exit Improvement Act leaves no doubt that 
Congress expects the investment to be made which will increase 
the Department's ability to promptly identify those who 
overstay their visa, strengthening our border security efforts 
in the process. Unlike several of this subcommittee's previous 
hearings on this topic, this hearing is focused on how we as a 
Nation can best establish a viable biometric exit system, one 
that serves our National security interests as a tool to 
strengthen our border security efforts, enhance our 
transportation security interests, fight terrorism, and toughen 
our immigration control efforts.
    So I will certainly commend the work that the DHS has done 
over the last few years to focus their efforts on preventing 
terrorists from coming into the country in the first place. 
Pushing our borders out is a very smart policy. Adding a 
reliable biometric exit system reduces the chance that visitors 
can stay in the country beyond their period of admission and 
reduces the terrorist threat in the process.
    While I certainly understand that this effort is not going 
to be easy, today we would like to explore how this Nation can 
fulfill the recommendation of the 9/11 Commission and establish 
a biometric exit system. So I certainly look forward to hearing 
from our very excellent panel of witnesses for their testimony 
today.
    I would like to recognize the Ranking Member for her 
opening statement, as well.
    Ms. Jackson Lee. Let me thank Chairwoman Miller for holding 
this hearing and reminding us of the tragedy and the journey 
that we have taken since 9/11. As one of the Members who was 
here and here in the United States Capitol, one of the first 
Members to travel to ground zero in the midst of the recovery 
stage, there is nothing more compelling, potent to be able to 
see that most unbelievable and devastating, mind-boggling, 
mind-changing, and the ending of the naivete of the United 
States than to be standing on that very ground.
    I remain humbled and respectful of the lives lost, the 
lives sacrificed, and those first responders, which makes this 
hearing and legislation even more vital. As we look currently 
in the backdrop of first to recall Mumbai, which did not have a 
border instance because people just literally came out of the 
water, but Kenya reminds us that terrorism is both franchised 
and surprising. Anything we can do to ensure that individuals 
in this country leave timely, but also to know the individuals, 
hopefully, that may be overstays on purpose of doing harm I 
think is a vital effort for this committee.
    So holding this hearing today to examine the issue of 
deploying a biometric exit system in our Nation's ports of 
entry I believe is vital.
    We had a very active bipartisan discussion about this issue 
during the subcommittee markup of H.R. 1417, the Border 
Security Results Act of 2013, earlier this year. That bill, 
having passed out of the full committee in a bipartisan manner, 
is now being viewed as a major, major component to any aspect 
of comprehensive immigration reform. Homeland Security has 
often been at the leadership helm of bringing together 
Republicans and Democrats around important issues of securing 
the homeland.
    I was pleased at that time to support an amendment at the 
full committee mark-up to require the Department of Homeland 
Security to develop an implementation plan for a biometric exit 
capability. Most recently I joined the gentlelady from 
Michigan, Mrs. Miller, as an original cosponsor of H.R. 3141, a 
bill to require DHS to deploy a biometric exit system to record 
foreign travelers' departure from the United States.
    I applaud Mrs. Miller, No. 1, for capturing the discussion 
during our mark-up of H.R. 1417, but more importantly, as a 
senior Member on the House Judiciary Committee, working closely 
with, looking at various reform measures for the National 
Security Agency and assessing the overreach of addressing 
surveillance of Americans. I am very glad that she pointedly 
made the point that this would not be an oversight or a 
collecting of data on American citizens.
    I want to say that again, as she did: This would not be a 
collection of data on American citizens. The bill points 
specifically and pointedly to foreign travelers.
    I remain committed to working with my colleagues on a 
bipartisan basis on this very important issue. While this 
subcommittee frequently focuses on the need to better secure 
our land borders, addressing visa overstays, in part by 
employing biometric exit, is equally important. Indeed, the 
importance of this issue is underscored by the fact that 
several of the border security immigration reform bills 
introduced this Congress require progress on a biometric exit 
system.
    There is a strong bipartisan support in Congress for 
biometric exit, although the approaches and time lines for 
deployment differ. Achieving this mandate is already long 
overdue.
    While DHS has made significant progress by implementing a 
biometric entry system, a solution for biometric exit has been 
far more difficult to come by. According to the Government 
Accountability Office, DHS currently has over a million 
unmatched records representing potential overstays in this 
country. Many of these individuals have overstayed but others 
have likely departed the country, and we are left with no 
information, no ability to track, and no way of providing 
assurance that our homeland is secured.
    We need to know with certainty who has overstayed in the 
United States so that DHS is not wasting scarce resource 
attempting to locate visitors who have, in fact, returned home. 
I want to hear from our witnesses today about how DHS can 
finally make progress on implementing a biometric exit.
    At the same time, as a Member from a border State I am well 
aware of the importance of maintaining the flow of legitimate 
trade and travel as DHS implements this mandate. I notice that 
the legislation proceeds with our border ports, and then goes 
on to airports and then goes on to pedestrian and land and 
vehicle lanes, as well. Having been to the Southern Border and 
watched that effort, I know how important it is to get a system 
that works; that works to secure us but does not impede trade 
and traffic, particularly legitimate trade and traffic here to 
do good in the United States.
    I am confident that with the right approach and appropriate 
support from Congress DHS can do just that. I look forward to a 
productive discussion and hearing today on this important 
issue, and I also look forward to working with my colleagues on 
both sides of the aisle on H.R. 3141 as it moves through the 
committee process, subjects itself to, or is subjected to the 
amendment process, which I know will be done, as well, in a 
bipartisan manner.
    I remain committed to advocating for common-sense 
enforcement measures as part of a broader immigration reform 
package that will not only secure our borders but also uphold 
our values as a Nation of immigrants.
    Madam Chairwoman, I say it often and will say it again: We 
are long overdue for a comprehensive approach to immigration 
reform, and I challenge this committee that has already done 
its work, I challenge this House and our speaker that we put on 
the floor of the House a comprehensive immigration reform bill 
post-haste, immediately, as we make and do our work here on 
Homeland Security.
    I thank the witnesses for being here today, and I yield 
back the balance of my time.
    I do want to acknowledge Beto O'Rourke, a Member of the 
subcommittee.
    Mrs. Miller. I thank the gentlelady for her comments and I 
thank her for her comments in regards to the Border Security 
Act. In regards to comprehensive immigration reform, I think 
many of us think that Federal Government perhaps does not do 
comprehensive particularly well, particularly when we look at 
health care issues and other kinds of things.
    But certainly border security first and foremost is a 
renumerated responsibility of the Federal Government, and I 
think certainly our Border Security Act, as it came out of this 
subcommittee and the full committee in a bipartisan way, is 
evidence that both parties are very focused on border security, 
and a big component of that is interior enforcement, and so 
that is the purpose of the hearing today.
    I will remind other Members that their opening statements 
could be submitted for the record if they would like to do so.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 26, 2013
    I am pleased the subcommittee is meeting today to examine the 
Department of Homeland Security's efforts to deploy a biometric exit 
system to record the departure of visitors to this country.
    As Chairman of this committee, I held hearings and conducted 
oversight of DHS's activities on this important matter, and have long 
believed that we must do more to address the issue of immigration 
overstays.
    Deploying a biometric exit system--as recommended by the 9/11 
Commission and mandated repeatedly on a bi-partisan basis by Congress--
is an important part of that effort.
    Much of the focus in the immigration reform and border security 
debate is on our Nation's Southwest Border, but an estimated 40 percent 
of individuals unlawfully present in the United States entered this 
country legally and overstayed.
    Yet a dozen years after September 11, 2001, DHS is still without a 
biometric entry-exit system to positively identify those who failed to 
depart this country as they were required to do.
    That is why I am an original cosponsor of H.R. 3141, a bill 
authored by Rep. Candice Miller, to again require DHS to deploy a 
biometric exit data system at ports of entry.
    I believe the bill takes a very reasonable, phased approach to 
deploying the system.
    DHS should have sufficient time to put in place the necessary 
technology, infrastructure, and personnel without causing undue delays 
to legitimate travel and commerce.
    Indeed, Congress first mandated an entry-exit system for visitors 
to this country in 1996, and required that the system be biometric as 
early as 2001, so this requirement does not come as a surprise to DHS.
    I look forward to hearing from our Customs and Border Protection 
(CBP) witness today about what substantive steps the agency is taking 
to deploy biometric exit at ports of entry.
    I specifically want to hear what CBP's schedule and benchmarks are 
for achieving this mandate.
    I also hope to hear from our GAO witness about whether DHS is on 
track to make timely progress on exit, based on the work GAO conducted 
for its July report on overstays.
    I recognize that deploying a biometric exit system will not be an 
easy task, but continue to believe it is essential for our homeland 
security.
    The time has long since passed for excuses about why it cannot or 
should not be done.
    Instead, DHS--with support and resources from Congress--needs to 
find a way to make it happen.
    I thank the witnesses for being here today, and I yield back the 
balance of my time.

    Mrs. Miller. We are pleased today to have three very 
distinguished witnesses before us on this important topic.
    First of all, Mr. John Wagner is the acting deputy 
assistant commissioner from the U.S. Customs and Border 
Protection. Mr. Wagner formerly served as the executive 
director of admissibility and passenger programs with 
responsibility for all traveler admissibility-related policies 
and programs.
    Mr. John Woods is an assistant director at the United 
States Immigration and Customs Enforcement, ICE, where he 
oversees the National security investigations division within 
homeland security investigations. He oversees programs 
targeting transnational security threats arising from illicit 
travel, trade, and financial enterprises.
    Ms. Rebecca Gambler, a return visit again to our 
subcommittee; we appreciate that, is an acting director in the 
U.S. Government Accountability Offices for homeland security 
and justice team. Ms. Gambler leads GAO's work on border 
security and immigration issues.
    Certainly the witnesses' full statements will appear in the 
record.
    The Chairwoman now recognizes Mr. Wagner.

STATEMENT OF JOHN WAGNER, ACTING DEPUTY ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Thank you.
    Chairwoman Miller and Ranking Member Jackson Lee, 
distinguished Members of the committee, thank you for the 
opportunity to appear today to discuss the role of U.S. Customs 
and Border Protection in entry-exit operations. We appreciate 
the opportunity to speak on this very important issue which 
supports the core mission functions of our organization.
    The 2013 DHS appropriations law signed this past spring 
transferred the responsibility for entry-exit policy to CBP. We 
embrace this new direction and this new challenge. We have 
already established an entry-exit transformation office within 
the Office of Field Operations who is actively moving forward 
on several initiatives that we will discuss today.
    I would like to begin today by discussing how we collect 
arrival information from foreign nationals seeking to enter the 
United States. CBP receives passenger manifests from air and 
sea carriers in advance of departure to the United States. 
These manifests indicate who is on-board the aircraft or 
vessel. This information is vetted against a number of law 
enforcement databases and automated targeting systems prior to 
departure from the foreign location and it enables CBP to 
address potential risk factors and admissibility issues prior 
to boarding the aircraft.
    Upon arrival in the United States, the CBP officers 
interview every traveler to determine the purpose and intent of 
travel. CBP officers also confirm the accuracy of the 
biographic manifest data that has been provided by the 
carriers, who are subject to fines for any missing or 
inaccurate data. For foreign nationals the person's fingerprint 
biometrics and digital photograph are collected and additional 
database checks are done to ensure there are no previous 
violations or any other risk factors that would warrant further 
inspection.
    Once determining a visitor is admissible to the United 
States and there are no risk factors to indicate the person 
does not intend to comply with the terms of their admission, 
CBP will stamp the passport and indicate the duration of the 
allowable visit on the passport page. At the land border CBP 
officers also interview every traveler arriving in the United 
States for purpose and intent of travel. Fingerprint biometrics 
and digital photographs are collected from all visitors except 
for those exempt, which are most Canadians and Mexican citizens 
only traveling within the border economic zone.
    CBP has reduced the number of acceptable identity documents 
from more than 8,000 a few years ago to a core set of six, 
allowing CBP to increase the percentage of documents verified 
and queried through criminal and National security bases from 5 
percent in 2005 to over 97 percent today.
    Now that I have described our arrival processing I will 
outline the process for departing passengers and how we match 
the entry and exit information together. Air and sea carriers 
provide biographic manifest data for all departing travelers 
prior to leaving the United States. The carriers are required 
to provide specific sets of data, which include the name and 
passport number, and they are subject, again, to fines for 
missing or inaccurate data.
    As you will remember, it is through this process that CBP 
apprehended the Times Square bomber, Faisal Shahzad, who was 
attempting to depart JFK Airport in 2010.
    The biographic departure data is then able to be matched 
against arrival data to determine who has overstayed their 
period of admission. DHS maintains a separate system 
specifically for this purpose.
    It is important to point out that determining lawful status 
is more complicated than simply matching entry and exit data. 
For example, a person may receive a 6-month admission period at 
a time at a port of entry but then apply to receive an 
extension of that 6 months, which is relevant to determining if 
that person truly overstayed or not.
    The land borders environment is considerably different than 
that of air and sea. First, the traveler volume is 
significantly higher and includes various modes of 
transportation. There is also major infrastructure obstacles to 
the collection of an individual's data upon departure at the 
land border. There are a limited number of vehicle and 
pedestrian lanes upon departure and vehicles can depart the 
United States traveling at 50 miles an hour in some locations.
    In order to begin to address these challenges CBP has 
developed innovative ways to collect exit information in the 
land environment on the Northern Border. CBP and the Canada 
Border Services Agencies have partnered to create a biographic 
entry-exit system on the shared land border by exchanging entry 
information so that information collected on an entry in one 
country is automatically recorded as an exit from another. This 
began on June 30, 2013, and CBP has collected over 1 million 
records from Canada and receive about 10,000 to 15,000 per day 
at a matching rate of over 98 percent. We are currently 
exchanging data on all third-country nationals but we will 
expand to include all citizens in June of next year.
    Unfortunately, it is not feasible to simply replicate this 
on the Southern Border. Mexico does not have fixed physical 
structures at ports of entry to process travelers entering 
Mexico for immigration purposes, nor does it have data 
collection procedures similar to the United States and Canada. 
But we will continue to work with Mexico to explore ways to do 
this.
    As CBP is advancing aggressively to enhance our existing 
capabilities and progressing our thoughtful and responsible 
path to deploy a biometric exit system, we are working in 
partnership with Science and Technology, part of DHS, to 
determine operational and technical concepts for a biometric 
air exit program. We are focusing on technology currently 
available that can seamlessly and transparently fit into the 
existing traveler process upon departure and eliminate major 
disruptions to travel and keep costs low.
    We are building a facility to test biometrics with S&T by 
February 2014 and we do plan on testing the various biometric 
technologies throughout the course of the next calendar year. 
We do plan to implement a biometric exit test in a live airport 
in mid-2015.
    But it is really important to point out that it is not so 
much the technology itself but it is where you place it in that 
process. If you place it too far in advance of departure what 
you are going to end up doing is really defaulting back to 
relying on a biographic system where we are just using the APIS 
closeout manifest to determine whether a person really or not 
traveled.
    We want to be careful we don't create a system where we put 
biometrics into the process and we collect the biometrics and 
then the person leaves the airport and never boards the 
aircraft. So we want some assurances that that person actually 
got on-board that aircraft and really not just put biometrics 
into place just to say we did so but to do it in a thoughtful, 
deliberate, and meaningful way.
    So thank you.
    [The joint prepared statement of Mr. Heyman, Mr. Wagner, 
and Mr. Woods follows:]
 Joint Prepared Statement of David F. Heyman, John P. Wagner, and John 
                                P. Woods
                           September 25, 2013
                              introduction
    Chairman Miller, Ranking Member Jackson Lee, and other 
distinguished Members, thank you for the opportunity to appear before 
the committee to highlight the Department of Homeland Security's (DHS) 
critical work on implementing a biometric entry/exit system. Today, DHS 
manages a fully-functioning entry/exit system in the air and sea 
environments using biometric and biographic components. To illustrate 
the progress the Department has made, 10 years ago, screening of 
passengers coming to the United States was limited to the Department of 
State's (DOS) visa process, if applicable, for those individuals 
requiring a visa; passenger information provided voluntarily by air 
carriers; and the inspection of a person by an immigration officer upon 
their arrival at a United States port of entry. There was no biometric 
collection for visa applicants beyond photographs, nor for individuals 
seeking admission to the United States. There was very limited pre-
departure screening of passengers seeking to fly to the United States 
and there was virtually no screening of any kind for domestic flights 
beyond passing through metal detectors at airport checkpoints. There 
was no advance screening of passengers seeking admission under the Visa 
Waiver Program (VWP), and interagency sharing of information on 
terrorist threats was minimal.
    In the last decade, with the support of Congress, and by working 
with our international partners, DHS has significantly adapted and 
enhanced its ability to detect and interdict threats at the earliest 
opportunity. Individuals intending to travel to the United States under 
the VWP must now obtain authorization through the Electronic System for 
Travel Authorization (ESTA) program before boarding an air or sea 
carrier for travel to the United States. ESTA screens passengers 
against various Government databases and has virtually digitized the 
Form I-94W (Arrival/Departure Record) for authorized travelers from 
participating VWP countries. Additionally, all passengers seeking to 
fly to, from, or within the United States are similarly screened prior 
to boarding an aircraft under the Secure Flight program. For non-
citizens, passengers' biometrics are collected and checked against 
terrorist watch lists prior to being issued a visa or being permitted 
to enter the United States, and agencies share information on known or 
suspected terrorists with each other. Further, we have developed new 
capabilities and systems (such as our Advanced Targeting System and 
Behavioral Detection program) to help identify possible terrorists and 
others who seek to travel to or within the United States to do harm.
    It has long been a goal of the Federal Government to obtain 
accurate and timely data on those who overstay \1\ their period of 
admission to the United States. Congress enacted legislation on 
implementing an entry/exit system to help achieve that goal. As part of 
a 2004 section of the legislation, such a system would require some 
form of biometric (i.e., fingerprints) to be collected when a foreign 
national enters and leaves the United States. The purpose would be to 
match entry and exit records and determine who is complying with their 
period of admission to the United States and sanction those who have 
not.
---------------------------------------------------------------------------
    \1\ An individual is deemed an overstay if he or she fails to leave 
the country within the authorized period of admission.
---------------------------------------------------------------------------
    As you know, many countries use biographic data, which is 
essentially text data that is commonly included on a data page of a 
traveler's passport, such as name, date of birth, document information, 
and country of citizenship. A biographic system is an entry/exit system 
that matches the information on an individual's passport or other 
travel document when he or she arrives to and departs the country. By 
contrast, a biometric system matches data of a biometric or physical 
component from a person that is unique to an individual (i.e., 
fingerprints, a facial image, or iris scan) collected when a foreign 
national enters and leaves the United States.
    While the United States did not build its border, aviation, or 
immigration infrastructure with exit processing in mind, the Department 
of Homeland Security piloted various biometric exit programs in 15 
ports of entry to try to find a way to achieve such a system.\2\ 
Through these pilots, we found that the limitations of existing 
technology plus the lack of infrastructure for departing passengers 
would require more than $3 billion in investments as well as 
significant disruptions to passengers and airlines for a biometric exit 
program in the air environment alone.\3\ The Department has since 
worked to bring the existing biographic system to a level of fidelity 
equal to, or nearly equal to, a biometric system while continuing to 
pursue a more cost-effective biometric solution.\4\
---------------------------------------------------------------------------
    \2\ There are emerging biometric technologies now available in the 
market that were unavailable at the time of the pilots. Accordingly, 
there will be additional opportunities to pursue research and 
development into a future biometric air exit system, on which Customs 
and Border Protection (CBP) and the DHS Science and Technology (S&T) 
Directorate are currently working together.
    \3\ U.S. airports do not have designated and assured exit areas for 
out-going passengers to wait prior to departure, nor do they have 
specific checkpoints through which an out-going passenger's departure 
is recorded by an immigration officer. Air carriers also have raised 
objections to this requirement, and in 2008, Congress directed DHS to 
conduct biometric pilots prior to establishing any new system. In the 
land environment, there are often geographical features that prevent 
expansion of exit lanes to accommodate additional lanes or the addition 
of CBP-manned booths.
    \4\ Typically, most countries use biographic information, which is 
essentially text data that is commonly included on a data page of a 
traveler's passport, such as name, date of birth, and country of 
citizenship. Text data can be electronically read through passport 
features based on international standards, such as a machine-readable 
zone or an e-Passport chip. A biographic system is an entry/exit system 
based on matching the information on an individual's travel document 
when he or she arrives to and departs the United States.
---------------------------------------------------------------------------
    Today, the Department manages a fully-functioning entry/exit system 
that tracks and identifies overstays. Specifically, the Department is 
now able, on a daily basis, to identify and target for enforcement 
action those who have overstayed their period of admission and who 
represent a public safety and/or National security threat. Moreover, we 
continue to move forward in building a biometric air exit system that 
can be integrated in the current architecture once it is cost-effective 
and feasible to do so.
                   a comprehensive entry/exit system
    Collecting entry and exit data is one part of a comprehensive 
entry/exit system. If we look at the totality of an entry/exit system, 
it extends beyond our physical borders to include a number of steps 
that may occur well before a visitor enters the United States and up to 
the point at which that same visitor departs the United States through 
a land, air, or sea port of entry/port of departure.
How DHS Collects Arrival Information
    In instances where the individual needs a visa to enter the United 
States, information is captured at the time his or her visa application 
is filed with DOS along with additional information developed upon an 
interview with a consular officer. It is important to note that if the 
individual is from a Visa Waiver Program country and does not require a 
visa, he or she may be required to apply through ESTA. Information is 
then collected through the ESTA application.
    For travelers in the air and sea environment, DHS also receives 
passenger manifests submitted by air and sea carriers, which indicates 
every individual who actually boarded the plane or ship. This 
information is collected in DHS's Advance Passenger Information System 
(APIS) and then sent to the Arrival and Departure Information System 
(ADIS), where it will be held for matching against departure records.
    When a nonimmigrant arrives at a U.S. port of entry and applies for 
admission to the United States by air or sea, the traveler is 
interviewed by a CBP officer regarding the purpose and intent of 
travel. His or her document is reviewed, law enforcement checks are 
run, and biometrics (fingerprints and photo) are screened against and 
stored in the DHS systems. If admission is granted, the CBP officer 
will stamp the traveler's passport with a date indicating his or her 
authorized period of admission. Based on electronic information already 
in DHS's systems, a Form I-94, Arrival/Departure Record, is 
electronically generated for that person and can be printed remotely by 
the individual if the individual needs it to provide evidence of legal 
entry or status in the United States. The form also indicates how long 
the person is authorized to stay in the United States.
    When an individual bearing a nonimmigrant visa arrives at a land 
port of entry, the individual is sent to secondary inspection where 
biometrics are collected (if appropriate) and CBP may issue that person 
a Form I-94A, Departure Record, which records their authorized period 
of admission.
How DHS Collects Departure Information
    Similar to the way DHS gathers passenger manifests prior to entry 
through the air and sea environments, DHS also collects through APIS 
passenger manifests submitted by commercial air and sea carriers 
departing the United States. Since 2008, collection of this information 
has been mandatory and compliance is near 100 percent resulting in a 
fully-functioning exit system in the air and sea environments using 
biographic data. Carriers are required to report biographic and travel 
document information to DHS for those individuals who are physically on 
the airplane or sea vessel at the time of departure from the United 
States and not simply on those who have made a reservation or scheduled 
to be on-board. DHS monitors APIS transmissions to ensure compliance 
and issues fines for noncompliance on a monthly basis. CBP transfers 
this data (excluding data for U.S. Citizens) to ADIS, which matches 
arrivals and departures to and from the United States.\5\
---------------------------------------------------------------------------
    \5\ DHS uses this information for a variety of immigration and law 
enforcement reasons, including to determine which travelers have 
potentially stayed past their authorized period of admission (i.e., 
overstayed) in the United States.
---------------------------------------------------------------------------
How DHS Addresses Overstays of Authorized Period of Admission
    When information reveals that an individual is a confirmed 
overstay, the Department takes action, including working with DOS to 
revoke visas and apprehending individuals. Since fiscal year 2011, DHS 
has made substantial improvements to maximize our ability to identify, 
prioritize, and sanction confirmed overstays.
    As of April 9, 2013, DHS has implemented the following system 
updates:
  <bullet> Automation of the flow of information between ADIS and the 
        Automated Targeting System for Passengers ATS-P.--CBP has 
        updated the flow of information between ADIS and ATS-P to 
        reduce manual processes for moving data between the two 
        systems. This update saves time, improves processing quality, 
        increases efficiency, and better protects privacy, as the 
        transfer of information occurs through secure electronic means 
        instead of manually saving information on portable devices.
  <bullet> Use of ATS-P to enhance name matching for overstay 
        vetting.--CBP has leveraged existing ATS-P matching algorithms, 
        previously not available to ADIS, for the purposes of better 
        matching names in entry and exit records, thereby improving the 
        accuracy of the overstay list. Additional matching algorithms 
        have helped identify matches that the original ADIS system may 
        have missed.
  <bullet> Development of Basic Immigration and Customs Enforcement 
        (ICE) Overstay ``Hot List''.--CBP created an operational 
        dashboard for ICE agents that automatically lists and 
        prioritizes validated records of individuals who may have 
        overstayed and who are likely still in the United States, 
        pursuant to National security and public safety criteria. This 
        reduces the previous manual process in the exchange of data 
        between NPPD/OBIM and ICE and allows ICE to allocate resources 
        to those cases of highest priority, on a near-real-time basis.
  <bullet> Implementation of an ADIS to IDENT interface.--This effort 
        created an interface between IDENT (the biometric database for 
        DHS) and ADIS, the two systems currently housed at the Office 
        of Biometric Identity Management (OBIM).\6\ This helps reduce 
        the number of records on the overstay list by providing 
        additional and better-quality data to ADIS, closing information 
        gaps between the two systems.
---------------------------------------------------------------------------
    \6\ OBIM supports DHS components by providing matching services 
against its databases (IDENT and ADIS collectively) and returning any 
linked information when a match is made as they vet individuals already 
encountered by DHS to identify known or suspected terrorists, National 
security threats, criminals, and those who have previously violated 
U.S. immigration laws.
---------------------------------------------------------------------------
  <bullet> Improved ability of ADIS to match United States Citizenship 
        and Immigration Services' (USCIS) Computer Linked Adjudication 
        Information Management System (CLAIMS 3) data.--The Department 
        has worked to improve the quality, timeliness, and relevance of 
        data sent from CLAIMS 3 to ADIS, improving the ability of ADIS 
        to match the data accurately with other records. Many aliens 
        enter the United States and then extend or change their status 
        lawfully, and therefore have not overstayed even though their 
        initial period of authorized admission has expired.
    By mid-fiscal year 2014, DHS plans to develop and deploy:
  <bullet> Unified Overstay Case Management process.--Through a data 
        exchange interface between ADIS and ICE's LeadTrac system,\7\ 
        overstay case management work is being migrated to one analyst 
        platform, LeadTrac, for DHS. Additionally, ADIS will receive 
        enhanced overstay case management updates from ICE.
---------------------------------------------------------------------------
    \7\ LeadTrac is an ICE system designed to receive overstay leads to 
compare against other DHS systems and classified datasets to uncover 
potential National security or public safety concerns for referral to 
ICE field offices for investigation. The system employs a case 
management tracking mechanism to assist with analysis, quality control 
reviews, lead status, and field tracking.
---------------------------------------------------------------------------
  <bullet> Enhanced ADIS and Transportation Security Administration 
        (TSA) Alien Flight Student Program (AFSP) data exchange.--TSA 
        relies on ADIS to identify overstays who are enrolled in the 
        AFSP and provide them to ICE for action. ADIS will utilize 
        existing overstay vetting operations to increase efficiency and 
        prioritization of TSA AFSP overstays within the ADIS overstay 
        population.
  <bullet> Enhanced Overstay Hot List.--The Enhanced Overstay Hot List 
        will consolidate immigration data from multiple systems to 
        enable ICE employees to more quickly and easily identify 
        current and relevant information related to the overstay 
        subject. DHS will expand capability, including the use of 
        additional law enforcement and counterterrorism data in the Hot 
        List for ICE, which will return the results from multiple 
        database queries in a consolidated dossier, from which analysts 
        can more easily retrieve the relevant information.
  <bullet> User-Defined Rules.--DHS will develop a capability for ICE 
        agents to create new or update existing rule sets within ATS-P 
        as threats evolve, so that overstays are prioritized for review 
        and action based on the most up-to-date threat criteria.
    The measures already in place have proven to be valuable in 
identifying, removing, and sanctioning overstays. The above DHS 
implementations have strengthened data requirements through computer 
enhancements, identified National security overstays through increased 
collaboration with the intelligence community, and automated manual 
efforts through additional data exchange interfaces. DHS looks forward 
to continuing this progress in fiscal year 2014.
The ICE Overstay Analysis Unit (OAU)
    To support DHS's commitment to enhance its vetting initiatives 
across the full mission space of homeland security. The OAU vets the 
system identified overstay records to confirm status and prepare the 
records to be sent to the ICE Counterterrorism and Criminal 
Exploitation Unit (CTCEU) for possible law enforcement action. 
Specifically, the OAU analyzes biographical entry and exit records 
stored in OBIM's ADIS to further support DHS's ability to identify 
international travelers who have remained in the United States beyond 
their authorized periods of admission.
    The OAU analyzes and validates two types of nonimmigrant overstay 
records: Out-of-country overstays (OCO) and in-country overstays (ICO). 
OCO records pertain to visitors who stayed beyond their authorized 
admission period and subsequently departed the country. The OAU 
validates these violations based on their reported departure dates and 
creates biometric and biographic lookouts for these subjects, in case 
the subjects attempt to enter the United States in the future. The out-
of-country overstay violator look-outs are posted in two separate 
databases: The IDENT Secondary Inspection Tool and CBP's TECS \8\ to 
alert and notify Department of State consular officers and CBP officers 
of a subject's violation before he or she is granted a visa or re-entry 
to the United States. In-country-overstay records pertain to visitors 
who remain in the United States with no evidence of departure or 
adjustment of status upon expiration of the terms of their admission. 
The OAU reviews and validates these ADIS system-identified violations 
based upon ICE identified categories of interest.
---------------------------------------------------------------------------
    \8\ TECS (not an acronym) is the updated and modified version of 
the former Treasury Enforcement Communications System. It is owned and 
operated by CBP.
---------------------------------------------------------------------------
    Typical overstay violators are addressed by nonimmigrant overstay 
leads, which are used to generate field investigations by identifying 
foreign visitors who violate the terms of their admission by remaining 
in the United States past the date of their required departure and who 
meet the Department's enforcement priorities.
    VWP violators are addressed by CTCEU's Visa Waiver Enforcement 
Program (VWEP). Visa-free travel to the United States builds upon our 
close bilateral relationships and fosters commercial and personal ties 
among tourist and business travelers in the United States and abroad. 
Today, ICE regularly scrutinizes a refined list of individuals who have 
been identified as potential overstays who entered the United States 
under the VWP. One of the primary goals of this program is to identify 
those subjects who attempt to circumvent the U.S. immigration system by 
obtaining travel documents from VWP countries.
The ICE CTCEU
    In 2003, DHS created CTCEU, which is the first National program 
dedicated to the enforcement of nonimmigrant visa violations. Each 
year, the CTCEU analyzes records of hundreds of thousands of potential 
status violators after preliminary analysis of data from the Student 
and Exchange Visitor Information System (SEVIS) \9\ and the OAU \10\ 
along with other information. After this analysis, CTCEU determines 
potential violations that warrant field investigations, (based on 
National security or public safety concerns) and/or establishes 
compliance or departure dates from the United States. Between 15,000 
and 20,000 of these records are analyzed each month and over 2 million 
such records have been analyzed using automated and manual review 
techniques.
---------------------------------------------------------------------------
    \9\ SEVIS is the database used for monitoring certified schools, F, 
M, and J non-immigrant students, and their dependents.
    \10\ OAU is in ICE's National Security Division and is a ``sister'' 
unit to the CTCEU. The CTCEU and OAU work collaboratively to identify 
and enforce overstays.
---------------------------------------------------------------------------
    Today, through the CTCEU, ICE proactively develops cases for 
investigation in cooperation with the Student and Exchange Visitor 
Program (SEVP) \11\ and the OAU. These programs enable ICE agents to 
access information about the millions of students, tourists, and 
temporary workers present in the United States at any given time, and 
to identify those who have overstayed or otherwise violated the terms 
and conditions of their admission and identified as National security 
or public safety concerns. To ensure that the potential violators who 
pose the greatest threats to National security are given priority, ICE 
uses intelligence-based criteria, developed in close consultation with 
the intelligence and law enforcement communities.
---------------------------------------------------------------------------
    \11\ SEVP is the program that facilitates and manages SEVIS.
---------------------------------------------------------------------------
    ICE special agents and analysts monitor the latest threat reports 
and proactively address emergent issues. This practice, which is 
designed to detect and identify individuals exhibiting specific risk 
factors based on intelligence reporting, including travel patterns, and 
in-depth criminal research and analysis, has supported high-priority 
National security initiatives based on specific intelligence.
                 enhancing the department's exit system
    In 2003, DHS began development of a biometric entry/exit system 
and, in 2004, fully implemented a biometric air entry solution into 
existing inspection booths that is currently in operation. Biometric 
land entry was deployed between 2004-2005. By contrast, implementing a 
biometric exit capability has been a significant challenge. The air 
environment afforded a single point where travelers were processed for 
admission to the United States and biometrics could be incorporated, 
whereas our airports were never architected for an exit control. DHS 
remains committed to maximizing the efficiency and effectiveness of the 
current entry/exit system, and has made progress in the last few years.
    In May 2012, DHS provided a report \12\ to the House and Senate 
Appropriations Committees that described the Department's plan for 
enhancing its existing biographic exit program. As part of this plan, 
various DHS components have been and are currently strengthening 
systems and processes in order to improve the accuracy of data provided 
to ADIS. This will enable ADIS to more accurately match entry and exit 
records and determine who may constitute an overstay, and whether that 
person presents a National security or public safety concern. Data that 
is entered into ADIS comes from a variety of sources in the Department 
including USCIS, CBP, and ICE. In addition, DHS has also identified 
mechanisms to improve the ``output'' of ADIS, to ensure ICE 
investigators receive priority high-risk overstay cases for resolution 
in a timely fashion, and to ensure other ADIS stakeholders (such as 
CBP, USCIS, and DOS) receive the best possible information with which 
to make immigration decisions.
---------------------------------------------------------------------------
    \12\ Comprehensive Exit Plan, Fiscal Year 2012 Report to Congress.
---------------------------------------------------------------------------
    To continue to explore the feasibility of a cost-effective and 
efficient biometric exit solution, in March 2013, CBP and S&T initiated 
a joint Air Entry/Exit Re-Engineering (AEER) Apex project \13\ to 
determine how and when a biometric air exit concept would be feasible. 
The purpose of the AEER Project is to analyze, develop, test, pilot, 
and evaluate integrated approaches to biometrically confirm the 
departure of non-U.S. citizens at U.S. airports, as well as to 
introduce more efficient traveler facilitation processes and effective 
biometric technologies to screen travelers entering the United States.
---------------------------------------------------------------------------
    \13\ Apex Programs are S&T initiatives that focus on cross-cutting 
or multi-disciplinary efforts, which are initially requested by DHS 
components and are of a high-priority, high-value, and urgent nature.
---------------------------------------------------------------------------
Land Entry/Exit Program
    Today, as part of the Beyond the Border Action Plan,\14\ the United 
States has a fully functioning land border exit system on its Northern 
Border for non-U.S. and non-Canadian citizens in addition to the 
existing air and sea entry/exit system. In fiscal year 2012, 
approximately 72 million travelers entered the United States through 
the border with Canada. Canada and the United States agreed to exchange 
land entry records at ports of entry along the U.S.-Canadian border in 
such a manner that land entries into one country will serve as exit 
records from the other. Canada and the United States began with a pilot 
program that exchanged data on third-country nationals at several land 
ports during a 4-month period that ended in January 2013.\15\ During 
the pilot, the United States was able to match 97.4 percent of records 
received from Canada to existing entry records.
---------------------------------------------------------------------------
    \14\ United States-Canada Beyond the Border: A Shared Vision for 
Perimeter Security and Economic Competitiveness, December 2011 Action 
Plan.
    \15\ The four locations were Peace Arch, Pacific Highway, Rainbow 
Bridge, and Queenstown/Lewiston.
---------------------------------------------------------------------------
    The second phase of the project was deployed on time on June 30, 
2013.\16\ During this phase, Canada and the United States are 
exchanging the entry data for third-country nationals, permanent 
residents of Canada, and U.S. lawful permanent residents in the United 
States, who enter through all automated common land ports. Over 1 
million records have been received from the Canada Border Services 
Agency since Phase 2 was initiated and the match rate of exit records 
received from Canada against existing U.S. entry records are over 98 
percent.
---------------------------------------------------------------------------
    \16\ http://www.cbp.gov/xp/cgov/newsroom/news_releases/national/
07032013.xml.
---------------------------------------------------------------------------
    By June 30, 2014, Canada and the United States will implement the 
third phase of the project, expanding the program to include the 
exchange of entry data for all travelers (including U.S. and Canadian 
citizens) who enter through any automated common land ports on the 
Northern Border. Overall, this initiative is expected to enhance the 
ability to identify departures and successfully match entry and exit 
records at the land border for the first time.
Entry/Exit Going Forward
    A comprehensive entry/exit system is key to supporting DHS's 
mission. However, the Department's continuing efforts to improve the 
entry/exit system a system should not be construed to mean that DHS 
does not already have a functioning exit/entry system in place. The 
Department continues to close the entry/exit gap by matching 
information obtained through air and sea manifests and exchanges with 
Canada. This year, through the fiscal year 2013 DHS appropriation, CBP 
was tasked with the entry/exit mission, including research and 
development into biometric exit programs. CBP has also established an 
Entry/Exit Transformation Office dedicated to managing and coordinating 
the entire spectrum of entry/exit efforts, including expansion of the 
entry/exit effort with Canada at the land border. This office is 
pursuing every opportunity to leverage DHS's investments in the 
Southwest Border and those that can be obtained in partnership with 
Mexico. Other projects to enhance exit management include an audit of 
airline manifest departure data in September and October to establish a 
biographic baseline to measure the success of future biographic and 
biometric exit solutions and improvements. In addition, the audit will 
allow CBP to ensure the credibility of APIS data used to calculate the 
overstay rates.
    Working with S&T, the office is establishing a physical facility 
that mimics real-life port scenarios. This facility, which will be 
operational in early 2014, will be used to test the latest in 
technological advancements in biometrics that may be candidates for use 
in matching departure information to arrivals. Only through this 
testing can CBP and S&T identify and qualify potential solutions, as 
well as assess the economic impacts of such solutions. As the test 
facility is being built this fall, CBP will develop strategies, goals, 
and objectives for the biometric air exit system that will be used to 
inform the testing process that will begin in 2014.
    DHS anticipates that these initiatives will enhance the existing 
entry/exit system in a myriad of ways that support our mission. The 
comprehensive entry/exit system will:
  <bullet> Take full advantage of, and enhance the existing automated 
        entry/exit capability that produces information on individual 
        overstays;
  <bullet> Incorporate and use biometric information as technologies 
        mature and become more affordable;
  <bullet> Improve DHS's ability to take administrative action against 
        confirmed overstays, enhancing the Department's ability to take 
        administrative action as quickly as possible--including visa 
        revocation, prohibiting re-entry into the United States, and 
        placing individuals on look-out lists, as necessary;
  <bullet> Support further the administration and enforcement of our 
        country's immigration laws--by improving DHS's ability to 
        identify who exits the United States, thus deterring 
        individuals from remaining in the country illegally; and
  <bullet> Enable DHS to better maintain a focus on individuals who may 
        wish to do us harm and facilitate the legitimate travel of 
        those who do not, while protecting the privacy of U.S. citizens 
        and legal permanent residents.
    DHS will continue to consider the traveler, stakeholders, and the 
Department when architecting a system that is easily adapted to current 
physical and infrastructure limitations, minimizes disruptions to 
travel, proves to be cost-effective, and is flexible enough to address 
not only current requirements but also to anticipate future ways of 
conducting business.
                               conclusion
    Despite significant challenges, over the past several years, DHS 
has implemented and now manages a fully-functioning entry/exit system 
in the air and sea environments, and is continuing to enhance 
capability for land. While the United States did not build its border, 
aviation, or immigration infrastructure with exit processing in mind, 
the Department of Homeland Security has worked to bring the existing 
biographic system to a level of fidelity equal to, or nearly equal to, 
a biometric system while continuing to pursue a more cost-effective 
biometric solution.
    Specifically, the Department is now able, on a daily basis, to 
identify and target for enforcement action those who have overstayed 
their period of admission and who represent a public safety and/or 
National security threat. Moreover, we continue to move forward in 
building a biometric air exit system that can be integrated in the 
current architecture once it is cost-effective and feasible to do so.
    While implementation of a robust and efficient biometric solution 
will take time, DHS has and will continue to take appropriate steps to 
evaluate emerging biometric technologies and work with appropriate 
public and private-sector stakeholders, such as the airlines and 
airports and other Federal agencies.
    The Department's continuing efforts to improve the entry/exit 
system should not be construed to mean that DHS does not already have a 
functioning exit/entry system in place. Rather than wait for a time 
when funding or capabilities are sufficient to implement a fully 
biometric system, the Department has built and is improving on a system 
that is effective today--and one which we will continue to enhance in 
the future.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mrs. Miller. Thank you.
    The Chairwoman now recognizes Mr. Woods for his testimony.

 STATEMENT OF JOHN WOODS, ASSISTANT DIRECTOR, IMMIGRATION AND 
   CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Woods. Chairwoman Miller, Ranking Member Jackson Lee, 
and distinguished Members of the subcommittee, it is a pleasure 
to be back before this subcommittee and have the opportunity to 
discuss ICE's Homeland Security Investigation's on-going 
efforts to identify and target for enforcement action those who 
have overstayed their period of admission and who represent a 
public safety or National security threat to this country.
    The HSI overstay analysis unit utilizes entry and exit 
records stored in the Arrival and Departure Information System, 
or ADIS, to better identify international travelers who have 
remained in the United States beyond their authorized period of 
admission. In this process HSI analysts vet the ADIS potential 
violators against a multitude of other DHS data sets to enhance 
the accuracy of the ADIS data and determine the prioritization 
of the potential leads. This analysis supports the Department's 
commitment to enhance its vetting initiatives across the full 
mission spectrum of Homeland Security.
    HSI analysts validate two types of nonimmigrant overstay 
records: Out-of-country overstays and in-country overstays. The 
out-of-country overstay records pertain to visitors who have 
stayed beyond their authorized period of admission and 
subsequently depart the United States. The overstay analysis 
unit validates these violations based on the reported departure 
dates and creates a biometric and biographic look-out for these 
subjects.
    These look-outs of the out-of-country overstay violators 
are posted in two separate databases: The IDENT Secondary 
Inspection Tool and CBP's TECS. The look-out records alert and 
notify the State Department consular offices and CBP offices of 
the violation before that individual is either: (A), granted a 
new visa, or (B), tries to reenter the United States.
    The in-country overstay records pertain to visitors who 
remain in the United States without no evidence of departure 
nor change or adjustment of their immigration status upon 
expiration of their term of admission. The overstay analysis 
unit reviews and validates these ADIS-system-identified 
violations based on ICE-determined, ICE-identified categories 
of interest.
    The overstay analysis unit makes the overstay and status 
violation referrals to HSI's counterterrorism and criminal 
exploitation unit, who in turn attempt to identify and locate 
leads within the United States where the overstay status 
violator may be located by special agents in the field for 
their investigation of the person's status and/or ability to 
remain lawfully in the United States.
    The CTCEU prioritizes cases for investigations from several 
potential violator categories. The first, of course, is the 
ADIS leads that we have discussed from the overstay analysis 
unit that provide those non-immigrant overstay leads and 
potential visa waiver program overstay leads.
    Another source is the admitted watch-list leads. This 
includes the records of individuals who, at the time of 
admission to the United States, were subject to a watch-listed 
record containing derogatory information that did not render 
the individual inadmissible to the United States but did 
warrant monitoring of their visit.
    Additionally, CTCEU monitors individuals who, after the 
entry, have had their visas revoked by the Department of State. 
Although these individuals may still be within their lawful 
period of admission, an investigation is warranted to determine 
whether a violation of the terms of their admission have 
occurred.
    Then finally, due to the duration of status admission 
period provided to foreign students in the F, J, and M visa 
categories, the CTCEU conducts recurrent vetting of the Student 
Exchange Visitor Information System to actively monitor whether 
new derogatory information is developed or obtained on an 
active student and which may warrant further investigation by a 
field special agent.
    The HSI CTCEU is the only National program dedicated to 
enforcement of the non-immigrant visa violations and is 
responsible for identifying and targeting those non-immigrant 
visa-holders who could pose a threat to National security or 
public safety. Each year the unit analyzes records of hundreds 
of thousands of potential non-immigrant violators. The CTCEU 
uses an intelligence-based criteria developed in close 
consultation with the intelligence and law enforcement 
communities to ensure that the latest information is 
incorporated into our targeting process.
    When potential threats are identified the unit refers a 
case for investigation to HSI field agents located throughout 
the United States. In all, this unit has the support of 
dedicated special agents in 200-plus field offices throughout 
the United States to accomplish this important mission.
    Again, we continue to make great progress in our ability to 
identify and target for enforcement action those who have 
overstayed their period of admission and who represent a public 
safety or National security threat to the country. Recent 
technological advances have created an unprecedented 
opportunity for HSI to identify and mitigate National security 
and public safety threats in a more efficient and expeditious 
manner than ever before.
    I want to thank the Chairwoman for inviting me here today 
to discuss this important topic, and I look forward to 
answering any questions that you may have.
    Mrs. Miller. Thank you very much, Mr. Woods.
    The Chairwoman now recognizes Ms. Gambler for her 
testimony.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, and Members of the subcommittee. I 
appreciate the opportunity to testify at today's hearing to 
discuss GAO's work reviewing Department of Homeland Security 
efforts to plan for and implement a system to collect biometric 
data from foreign nationals at U.S. ports of entry. Such a 
system is intended to help the Department in its efforts to 
identify potential overstays, among other goals.
    Beginning in 1996, Federal law has required the 
implementation of an entry and exit system, and in 2004 DHS was 
mandated to develop a plan to accelerate full implementation of 
a biometric entry-exit system. Currently DHS collects 
biographic information from foreign nationals entering and 
departing the country through airports and, on a more limited 
basis, at land ports.
    Since 2004 DHS has collected biometric information, namely 
fingerprints, from foreign nationals entering the United 
States. However, the Department has not yet developed and 
implemented a biometric exit capability, as required by 
statute.
    We have issued a number of reports on DHS's efforts to 
implement a biometric exit system, identifying weaknesses in 
the Department's planning and management. My remarks today will 
focus on actions DHS has taken to strengthen its biographic 
exit data and DHS's current planning efforts for a biometric 
air exit capability, which we reported on this past July.
    With regard to collecting biographic exit data, we found 
that DHS has taken action to improve both its collection and 
use of such data. For example, DHS is working to address 
weaknesses in collecting exit data at land borders by 
implementing the Beyond the Border Initiative, through which 
the United States and Canada exchange data on travelers 
crossing the Northern Border. Because an entry into Canada 
constitutes a departure from the United States, DHS will be 
able to use Canadian exit-entry data as proxies for U.S. 
departure records.
    DHS has also taken steps to strengthen its use of 
biographic data to identify potential overstays by, for 
example, enhancing the connections among components' databases 
to reduce the need for manual exchanges of data.
    While these are positive steps, DHS has faced significant 
challenges in developing and implementing a biometric exit 
capability. Some of these challenges include determining 
efficient mechanisms for collecting biometric data that do not 
disrupt passenger flows through airports and capturing 
biometric data at the point of departure.
    In May 2012 DHS reported internally on the results of its 
analysis, researching long-term options for a biometric air 
exit capability. In that report DHS concluded that the building 
blocks for implementing an effective system were available but 
that significant questions remained regarding, for example, the 
additional value biometric air exit would provide over the 
current biographic air exit process and the overall value and 
cost of a biometric capability.
    That report made recommendations to support the planning 
and development of a biometric air exit capability, such as for 
DHS to develop goals and objectives for its efforts and an 
evaluation framework to assess whether biometric air exit is 
economically justified. DHS initially planned to address those 
recommendations by May 2014 but now it does not plan to meet 
that date. Rather, DHS plans to develop options for biometric 
air exit and report to Congress regarding benefits and costs in 
time for the fiscal year 2016 budget cycle.
    DHS has also developed a high-level plan for its biometric 
air exit efforts but this plan does not identify the tasks 
needed to be completed for an evaluation framework. Further, 
the time frames in the plan are outdated.
    We recommended that the Department set time frames and 
milestones for developing and implementing an evaluation 
framework for assessing biometric air exit options. DHS 
concurred with this recommendation and stated that it plans to 
finalize goals and objectives by January 2014 and an evaluation 
framework by June 2014.
    We will continue to monitor DHS's efforts in response to 
our recommendation.
    In closing, DHS has faced long-standing challenges in 
making progress toward meeting the statutory requirement for 
biometric exit capabilities. While DHS has planning efforts 
underway to assess options for a biometric air exit system, any 
delays on the part of DHS in providing the planned assessment 
to the Congress could further affect implementation of a 
biometric air exit system.
    This concludes my oral statement, and I would be pleased to 
answer any questions that Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                           September 26, 2013
 border security.--additional actions needed to improve planning for a 
                       biometric air exit system
                              gao-13-853t
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee: I am pleased to be here today to discuss the status of 
the Department of Homeland Security's (DHS) efforts to implement a 
biometric exit system. Beginning in 1996, Federal law has required the 
implementation of an entry and exit data system to track foreign 
nationals entering and leaving the United States.\1\ The Intelligence 
Reform and Terrorism Prevention Act of 2004 required the Secretary of 
Homeland Security to develop a plan to accelerate implementation of a 
biometric entry and exit data system that matches available information 
provided by foreign nationals upon their arrival in and departure from 
the United States.\2\ In 2003, DHS initiated the U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT) program to develop a 
system to collect biographic data (such as name and date of birth) and 
biometric data (such as fingerprints) from foreign nationals at U.S. 
ports of entry.\3\ Since 2004, DHS has tracked foreign nationals' 
entries into the United States as part of an effort to comply with 
legislative requirements, and since December 2006, a biometric entry 
capability has been fully operational at all air, sea, and land ports 
of entry.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 104-208, div. C,  110, 110 Stat. 3009-546, 3009-
558 to 59. Additionally, the Immigration and Naturalization Service 
Data Management Improvement Act of 2000 required the implementation of 
an integrated entry and exit data system for foreign nationals that 
would provide access to and integrate foreign national arrival and 
departure data that are authorized or required to be created or 
collected under law and are in an electronic format in certain 
databases, such as those used at ports of entry and consular offices. 
See 8 U.S.C.  1365a(b)(1).
    \2\ See 8 U.S.C.  1365b.
    \3\ A port of entry is any officially-designated location (seaport, 
airport, or land border location) where DHS officers or employees are 
assigned to clear passengers and merchandise, collect duties, and 
enforce customs laws.
---------------------------------------------------------------------------
    However, we have identified a range of management challenges that 
DHS has faced in its effort to fully deploy a corresponding biometric 
exit capability to track foreign nationals when they depart the 
country.\4\ For example, in November 2009, we found that DHS had not 
adopted an integrated approach to scheduling, executing, and tracking 
the work that needed to be accomplished to deliver a biometric exit 
system.\5\ In these reports, we made recommendations intended to help 
ensure that a biometric exit capability was planned, designed, 
developed, and implemented in an effective and efficient manner. DHS 
generally agreed with our recommendations and has taken action to 
implement a number of them. Most recently, in July 2013, we reported on 
DHS's progress in developing and implementing a biometric exit system, 
as well as DHS's efforts to identify and address potential overstays--
individuals who were admitted into the country legally on a temporary 
basis but then overstayed their authorized period of admission.\6\
---------------------------------------------------------------------------
    \4\ See GAO, Overstay Enforcement: Additional Actions Needed to 
Assess DHS's Data and Improve Planning for a Biometric Air Exit 
Program, GAO-13-683 (Washington, DC: July 30, 2013); Homeland Security: 
US-VISIT Pilot Evaluations Offer Limited Understanding of Air Exit 
Options, GAO-10-860 (Washington, DC: Aug. 10, 2010); Homeland Security: 
Key US-VISIT Components at Varying Stages of Completion, but Integrated 
and Reliable Schedule Needed, GAO-10-13 (Washington, DC: Nov. 19, 
2009); Visa Waiver Program: Actions Are Needed to Improve Management of 
the Expansion Process, and to Assess and Mitigate Program Risks, GAO-
08-967 (Washington, DC: Sept. 15, 2008); Homeland Security: U.S. 
Visitor and Immigrant Status Program's Long-standing Lack of Strategic 
Direction and Management Controls Needs to Be Addressed, GAO-07-1065 
(Washington, DC: Aug. 31, 2007); Homeland Security: Planned 
Expenditures for U.S. Visitor and Immigrant Status Program Need to Be 
Adequately Defined and Justified, GAO-07-278 (Washington, DC: Feb. 14, 
2007); and Homeland Security: Some Progress Made, but Many Challenges 
Remain on U.S. Visitor and Immigrant Status Indicator Technology 
Program, GAO-05-202 (Washington, DC: Feb. 23, 2005).
    \5\ GAO-10-13.
    \6\ GAO-13-683.
---------------------------------------------------------------------------
    Within DHS, U.S. Customs and Border Protection (CBP) is tasked 
with, among other duties, inspecting all people applying for entry to 
the United States to determine their admissibility to the country. CBP 
collects biographic and biometric information to document 
nonimmigrants' entry into the country and biographic information to 
document their exit. CBP is also responsible for implementing a 
biometric exit program. Within DHS's National Protection and Programs 
Directorate, the Office of Biometric Identity Management (OBIM) manages 
the Automated Biometric Identification System, which maintains 
biometric information that DHS collects from nonimmigrants upon their 
entry into the United States.\7\ OBIM also manages the Arrival and 
Departure Information System, which tracks and matches arrival and 
departure records for the purpose of identifying potential overstays.
---------------------------------------------------------------------------
    \7\ Pursuant to the fiscal year 2013 DHS appropriations act and its 
accompanying explanatory statement, DHS created OBIM effective March 
27, 2013, to manage the Arrival and Departure Information System and 
the Automated Biometric Identification System and realigned US-VISIT's 
responsibility for analyzing overstay data into U.S. Immigration and 
Customs Enforcement. See Consolidated and Further Continuing 
Appropriations Act, 2013, Pub. L. No. 113-6, div. D, 127 Stat. 198, 
342, 346-47, 356 (2013); Explanatory Statement, Consolidated and 
Further Continuing Appropriations Act, 2013, 159 Cong. Rec. S1287, 
S1551, S1557-58 (daily ed. Mar. 11, 2013).
---------------------------------------------------------------------------
    My statement today is based on our July 2013 report and, like that 
report, discusses the extent to which DHS has made progress in 
developing and implementing a biometric exit system at air ports of 
entry, which is DHS's priority for a biometric exit capability.\8\ For 
our report, we reviewed statutory requirements for a biometric exit 
system and analyzed DHS documents, including a May 2012 report on the 
status of efforts to implement a biometric exit capability at airports 
that was based on analysis that DHS's Science and Technology 
Directorate (S&T) conducted. We compared the status of DHS's efforts 
against statutory requirements and standard practices for project 
management. We interviewed DHS Office of Policy and S&T officials 
regarding DHS's plans for addressing recommendations in the 
Department's May 2012 report and other on-going efforts to develop a 
biometric exit system. We also analyzed information about the Beyond 
the Border initiative, which is a joint effort between the United 
States and Canada to exchange entry and exit data through which entry 
into one country is treated as exit from the other. We conducted this 
work in accordance with generally accepted Government auditing 
standards. Our July 2013 report provides further details on our scope 
and methodology.
---------------------------------------------------------------------------
    \8\ GAO-13-683.
---------------------------------------------------------------------------
    dhs faces long-standing challenges and uncertain time frames in 
            planning for a biometric exit system at airports
    As we reported in July 2013, DHS has not yet fulfilled the 2004 
statutory requirement to implement a biometric exit capability, but has 
planning efforts under way to report to Congress in time for the fiscal 
year 2016 budget cycle on the costs and benefits of such a capability 
at airports and seaports. Development and implementation of a biometric 
exit capability has been a long-standing challenge for DHS. Since 2004, 
we have issued a number of reports on DHS's efforts to implement a 
biometric entry and exit system. For example, in February and August 
2007, we found that DHS had not adequately defined and justified its 
proposed expenditures for exit pilots and demonstration projects and 
that it had not developed a complete schedule for biometric exit 
implementation.\9\ Further, in September 2008, we reported that DHS was 
unlikely to meet its time line for implementing an air exit system with 
biometric indicators, such as fingerprints, by July 1, 2009, because of 
several unresolved issues, such as opposition to the Department's 
published plan by the airline industry.\10\ In 2009, DHS conducted 
pilot programs for biometric air exit capabilities in airport 
scenarios, and in August 2010 we found that there were limitations with 
the pilot programs--for example, the pilot programs did not 
operationally test about 30 percent of the air exit requirements 
identified in the evaluation plan for the pilot programs--that hindered 
DHS's ability to inform decision making for a long-term air exit 
solution and pointed to the need for additional sources of information 
on air exit's operational impacts.\11\
---------------------------------------------------------------------------
    \9\ GAO-07-1065 and GAO-07-278.
    \10\ GAO-08-967.
    \11\ GAO-10-860.
---------------------------------------------------------------------------
    In an October 2010 memo, DHS identified three primary reasons why 
it has been unable to determine how and when to implement a biometric 
exit capability at airports: (1) The methods of collecting biometric 
data could disrupt the flow of travelers through airport terminals; (2) 
air carriers and airport authorities had not allowed DHS to examine 
mechanisms through which DHS could incorporate biometric data 
collection into passenger processing at the departure gate; and (3) 
challenges existed in capturing biometric data at the point of 
departure, including determining what personnel should be responsible 
for the capture of biometric information at airports. In July 2013, we 
reported that, according to DHS officials, the challenges DHS 
identified in October 2010 continue to affect the Department's ability 
to implement a biometric air exit system. With regard to an exit 
capability at land ports of entry, in 2006, we reported that according 
to DHS officials, for various reasons, a biometric exit capability 
could not be implemented without incurring a major impact on land 
facilities.\12\ For example, at the time of our 2006 report, DHS 
officials stated that implementing a biometric exit system at land 
ports of entry would require new infrastructure and would produce major 
traffic congestion because travelers would have to stop their vehicles 
upon exit to be processed. As a result, as of April 2013, according to 
DHS officials, the Department's planning efforts focus on developing a 
biometric exit capability for airports, with the potential for a 
similar solution to be implemented at seaports, and DHS's planning 
documents, as of June 2013, do not address plans for a biometric exit 
capability at land ports of entry.
---------------------------------------------------------------------------
    \12\ GAO, Border Security: US--VISIT Program Faces, Strategic, 
Operational, and Technological Challenges at Land Ports of Entry, GAO-
07-248 (Washington, DC: Dec. 6, 2006).
---------------------------------------------------------------------------
    Our July 2013 report found that since April 2011, DHS has taken 
various actions to improve its collection and use of biographic data to 
identify potential overstays. For example, DHS is working to address 
weaknesses in collecting exit data at land borders by implementing the 
Beyond the Border initiative, through which DHS and the Canada Border 
Services Agency exchange data on travelers crossing the border between 
the United States and Canada.\13\ Because an entry into Canada 
constitutes a departure from the United States, DHS will be able to use 
Canadian entry data as proxies for U.S. departure records. As a result, 
the Beyond the Border initiative will help address those challenges by 
providing a new source of biographic data on travelers departing the 
United States at land ports on the Northern Border. Our July 2013 
report provides more information on DHS's actions to improve its 
collection and use of biographic entry and exit data.\14\
---------------------------------------------------------------------------
    \13\ We found in April 2011 that DHS faced challenges in its 
ability to identify overstays because of unreliable collection of 
departure data at land ports of entry. See GAO, Overstay Enforcement: 
Additional Mechanisms for Collecting, Assessing, and Sharing Data Could 
Strengthen DHS's Efforts but Would Have Costs, GAO-11-411 (Washington, 
DC: Apr. 15, 2011).
    \14\ GAO-13-683.
---------------------------------------------------------------------------
    In 2011, DHS directed S&T, in coordination with other DHS component 
agencies, to research long-term options for biometric air exit.\15\ In 
May 2012, DHS reported internally on the results of S&T's analysis of 
previous air exit pilot programs and assessment of available 
technologies, and the report made recommendations to support the 
planning and development of a biometric air exit capability.\16\ In 
that report, DHS concluded that the building blocks to implement an 
effective biometric air exit system were available. In addition, DHS's 
report stated that new traveler facilitation tools and technologies--
for example, on-line check-in, self-service, and paperless technology--
could support more cost-effective ways to screen travelers, and that 
these improvements should be leveraged when developing plans for 
biometric air exit. However, DHS officials stated that there may be 
challenges to leveraging new technologies to the extent that U.S. 
airports and airlines rely on older, proprietary systems that may be 
difficult to update to incorporate new technologies. Furthermore, DHS 
reported in May 2012 that significant questions remained regarding: (1) 
The effectiveness of current biographic air exit processes and the 
error rates in collecting or matching data, (2) methods of cost-
effectively integrating biometrics into the air departure processes 
(e.g., collecting biometric scans as passengers enter the jetway to 
board a plane), (3) the additional value biometric air exit would 
provide compared with the current biographic air exit process, and (4) 
the overall value and cost of a biometric air exit capability. The 
report included nine recommendations to help inform DHS's planning for 
biometric air exit, such as directing DHS to develop explicit goals and 
objectives for biometric air exit and an evaluation framework that 
would, among other things, assess the value of collecting biometric 
data in addition to biographic data and determine whether biometric air 
exit is economically justified.\17\
---------------------------------------------------------------------------
    \15\ In our previous reviews of DHS's efforts to pursue a biometric 
exit capability, DHS's plans have approached development of a biometric 
exit system through a phased approach that involved conducting pilots 
to inform eventual planning for long-term solutions. Different pilots 
were created to inform solutions at air, sea, and land ports. See GAO-
10-13. As of April 2013, the Department's planning efforts are focused 
on developing a biometric exit system for airports, with the potential 
for a similar solution to be rolled out at seaports, according to DHS 
officials.
    \16\ DHS, DHS Biometric Air Exit: Analysis, Recommendations and 
Next Steps, (Washington, DC: May 2012).
    \17\ The report recommended that DHS take the following actions: 
(1) Develop explicit goals and objectives for biometric air exit, (2) 
leverage improvements in passenger facilitation and biometric 
technology to support a concept of operations, (3) use developmental 
scenario testing instead of pilot programs to validate a concept of 
operations, (4) establish collaborative relationships with airports and 
airlines, (5) use operational tests to validate performance and cost 
estimates, (6) develop an evaluation framework for biometric air exit, 
(7) employ a holistic approach to assess the costs and benefits of 
comprehensive biometric entry and exit processes, (8) determine whether 
biometric air exit is economically justified, and (9) incrementally 
deploy biometric air exit to airports where it is cost-effective to do 
so.
---------------------------------------------------------------------------
    DHS reported in May 2012 that it planned to take steps to address 
these recommendations by May 2014; however, as we reported in July 
2013, according to DHS Office of Policy and S&T officials, the 
Department does not expect to fully address these recommendations by 
then. In particular, DHS officials stated that it has been difficult 
coordinating with airlines and airports, which have expressed 
reluctance about biometric air exit because of concerns over its effect 
on operations and potential costs. To address these concerns, DHS is 
conducting outreach and soliciting information from airlines and 
airports regarding their operations. In addition, DHS officials stated 
that the Department's efforts to date have been hindered by 
insufficient funding. In its fiscal year 2014 budget request for S&T, 
DHS requested funding for a joint S&T-CBP Air Entry/Exit Re-Engineering 
Apex project. Apex projects are cross-cutting, multi-disciplinary 
efforts requested by DHS components that are high-priority projects 
intended to solve problems of strategic operational importance. 
According to DHS's fiscal year 2014 budget justification, the Air 
Entry/Exit Re-Engineering Apex project will develop tools to model and 
simulate air entry and exit operational processes. Using these tools, 
DHS intends to develop, test, pilot, and evaluate candidate solutions. 
As of April 2013, DHS Policy and S&T officials stated that they expect 
to finalize goals and objectives for a biometric air exit system in the 
near future and are making plans for future scenario-based testing.
    Although DHS's May 2012 report stated that DHS would take steps to 
address the report's recommendations by May 2014, DHS officials told us 
that the Department's current goal is to develop information about 
options for biometric air exit and to report to Congress in time for 
the fiscal year 2016 budget cycle regarding: (1) The additional 
benefits that a biometric air exit system provides beyond an enhanced 
biographic exit system and (2) costs associated with biometric air 
exit. However, as we reported in July 2013, DHS has not yet developed 
an evaluation framework, as recommended in its May 2012 report, to 
determine how the Department will evaluate the benefits and costs of a 
biometric air exit system and compare it with a biographic exit system. 
According to DHS officials, the Department needs to finalize goals and 
objectives for biometric air exit before it can develop such a 
framework, and in April 2013 these officials told us that the 
Department plans to finalize these elements in the near future. 
However, DHS does not have time frames for when it will subsequently be 
able to develop and implement an evaluation framework to support the 
assessment it plans to provide to Congress.
    According to A Guide to the Project Management Body of Knowledge, 
which provides standards for project managers, specific goals and 
objectives should be conceptualized, defined, and documented in the 
planning process, along with the appropriate steps, time frames, and 
milestones needed to achieve those results.\18\ In fall 2012, DHS 
developed a high-level plan for its biometric air exit efforts, which 
it updated in May 2013, but this plan does not clearly identify the 
tasks needed to develop and implement an evaluation framework. For 
example, the plan does not include a step for developing the 
methodology for comparing the costs and benefits of biometric data 
against those for collecting biographic data, as recommended in DHS's 
May 2012 report. Furthermore, the time frames in this plan are not 
accurate as of June 2013 because DHS is behind schedule on some of the 
tasks and has not updated the time frames in the plan accordingly. For 
example, DHS had planned to begin scenario-based testing for biometric 
air exit options in August 2013; however, according to DHS officials, 
the Department now plans to begin such testing in early 2014. A senior 
official from DHS's Office of Policy told us that DHS has not kept the 
plan up to date because of the transition of responsibilities within 
DHS; specifically, in March 2013, pursuant to the explanatory statement 
for DHS's 2013 appropriation, DHS established an office within CBP that 
is responsible for coordinating DHS's entry and exit policies and 
operations.\19\ This transition was in process as of June 2013, and CBP 
told us that it planned to establish an integrated project team in July 
2013 that will be responsible for more detailed planning for the 
Department's biometric air exit efforts. DHS Policy and S&T officials 
agreed that setting time frames and milestones is important to ensure 
timely development and implementation of the evaluation framework in 
accordance with DHS's May 2012 recommendations. According to DHS 
officials, implementation of a biometric air exit system will depend on 
the results of discussions between the Department and Congress after 
the Department provides this assessment of options for biometric air 
exit.
---------------------------------------------------------------------------
    \18\ Project Management Institute, A Guide to the Project 
Management Body of Knowledge (PMBOK Guide), Fifth Edition, (Newton 
Square, Pennsylvania: 2013). We have used A Guide to the Project 
Management Body of Knowledge to provide criteria in previous reports, 
including GAO, Nonproliferation and Disarmament Fund: State Should 
Better Assure the Effective Use of Program Authorities, GAO-13-83 
(Washington, DC: Nov. 30, 2012).
    \19\ See Explanatory Statement, Consolidated and Further Continuing 
Appropriations Act, 2013, 159 Cong. Rec. S1287, S1550 (daily ed. Mar. 
11, 2013).
---------------------------------------------------------------------------
    In summary, we concluded in our July 2013 report that without 
robust planning that includes time frames and milestones to develop and 
implement an evaluation framework for this assessment, DHS lacks 
reasonable assurance that it will be able to provide this assessment to 
Congress for the fiscal year 2016 budget cycle as planned. Furthermore, 
any delays in providing this information to Congress could further 
affect possible implementation of a biometric exit system to address 
statutory requirements. Therefore, we recommended that the Secretary of 
Homeland Security establish time frames and milestones for developing 
and implementing an evaluation framework to be used in conducting the 
Department's assessment of biometric exit options. DHS concurred with 
this recommendation and indicated that its component agencies plan to 
finalize the goals and objectives for biometric air exit by January 31, 
2014, and that these goals and objectives will be used in the 
development of an evaluation framework that DHS expects to have 
completed by June 30, 2014.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Mrs. Miller. Thank you very much, Ms. Gambler.
    I would ask unanimous consent that the gentleman from 
Texas, Mr. Smith, is permitted to sit on the dais and 
participate in the hearing.
    Without objection, so ordered.
    You know, we always hear, just, I guess for my own 
clarification--we are always hearing about how many folks are 
here illegally in the country. I just would ask the question, I 
guess, any of you: How many people actually are here, your best 
guess, how many people are actually in the country illegally as 
a result of visa overstays?
    Mr. Wagner, what is your--if somebody asked you that, what 
would you say?
    Mr. Wagner. I am really not sure of what that number would 
be. I would be hesitant to even guess. I think, you know, we 
have committed to publishing the overstay rates by the end of 
the calendar year and, you know, we look forward to being able 
to do that. But can't give you a number today on what that 
would be.
    About a million people a day arrive in the United States. 
You know, roughly 40 percent of them are U.S. citizens so 
figure about 60 percent are visitors, but it is, you know, it 
is a high volume of people coming in every day at the different 
ports of entry.
    Mrs. Miller. Yes.
    Either of the other two have any number that they want to 
put forward as their best guess?
    Mr. Woods. Chairwoman, I think it would be premature to 
state a number at this time. I think, like Mr. Wagner said, the 
Office of Immigration Statistics is supposed to publish numbers 
by the end of this calendar year. That comes out of DHS Office 
of Policy.
    We report those numbers that we get out of the ADIS system 
to them. Historically, those numbers could not be validated 
correctly.
    Through the last 3 years we have made major investments 
into enhancing our technological capability to cross systems 
and cross data through the DHS spectrum. In doing that we feel 
we are getting better numbers and being able to validate those 
numbers, and I think once the statistics come out they will 
speak for themselves.
    Mrs. Miller. Ms. Gambler.
    Ms. Gambler. I would just add to that that since 1994 DHS 
or its predecessor has had a statutory requirement to report 
annual overstay estimates. The Department has not done that 
historically because of concerns about the reliability of the 
data they have on potential overstays.
    As the two gentlemen to my right mentioned, DHS is planning 
to report overstay estimates by the end of the year. I think it 
will be important for us to look at what those estimates are. I 
think it will also be important, as we reported, for DHS to 
disclose what any of the limitations are of that data and the 
methodology and methodologies they used to calculate that data 
so that we can assess what the estimates are and what they 
show.
    Mrs. Miller. I appreciate you making that--and very 
important to note that.
    So just sort of a follow-on question. I guess I am going to 
get the same answers. Could you give us your best guess of how 
many actually leave annually and are noted by our current 
systems and then how many we think are sort of lost into the 
system? You have any comment on that or are you going to wait 
till the end of the year again?
    Mr. Wagner. I think that is going to tie into the overstay 
rates that, you know, we will be publishing by the end of the 
year.
    Mrs. Miller. Mr. Woods, same answer?
    Mr. Woods. I would agree with him, yes.
    Mrs. Miller. Yes.
    Ms. Gambler, you have anything about that?
    Ms. Gambler. Again, I would just add that in our July 2013 
report we did identify that there were over 1 million unmatched 
arrival records in DHS's system. Those are records for which 
DHS has data on entry but not a corresponding record that the 
person either departed the country or applied for a change in 
status. Some number of those are potentially overstays or are 
overstays and some number may have departed or changed status 
without a record. So there is at least a million for which we 
have an entry record but don't have a corresponding record of 
departure or change in status.
    Mrs. Miller. Well, I appreciate all the answers, and we are 
all very well aware of the situation and are looking forward to 
the report at the end of the year.
    I just asked that basic question because I think it points 
out how vulnerable the United States of America is. We can't 
even figure out how many are here, how many are lost in the 
system. Evidence of why we need to do something much more 
structurally about pushing to make sure that we have a very 
robust exit system. This is not a good security posture for the 
United States to be in, in my opinion.
    I was just taking some notes, Mr. Wagner, as you were 
speaking about--and maybe I got my numbers here wrong--you were 
saying there were 10,000 to 15,000 per day leaving through the 
Northern Border, some of them going, as you mentioned 50 miles 
an hour, so they are just passing through without anyone being 
able to check of who they are, what they are leaving, et 
cetera, et cetera.
    But I think it is of note that what is happening with the 
Beyond the Border agreement between the United States and 
Canada is such an important document, really, a historic 
document, and the relationship that we have with Canada, who is 
our closest ally, our best friend, our biggest trading partner, 
as well. I always remind people, particularly when we are doing 
free trade agreements, Canada is--I mean, I come from Michigan; 
that is our biggest trading partner--but Canada is the United 
States' biggest trading partner, as well.
    So when you think about the ability to be able to exchange 
information between our two nations but then you subsequently 
said we had nothing really similar with the Mexican government, 
could you expand on that a little bit? Did I get my numbers 
right? We are getting 10,000 to 15,000 people per day going 
into that?
    Just as a follow-up, you have any idea, again, of 
percentages; how many people are leaving on the visas that are 
going through the Northern Border as opposed to the Southern 
Border?
    Mr. Wagner. We developed a very practical and cost-
efficient process with our partners in Canada, the Canada 
Border Services Agency. You know, we are exchanging that 
biographic information so the entry into Canada serves as the 
exit from the United States.
    Right now we are just doing a third-country national, so 
non-U.S., non-Canadian travelers, and it is about 10,000 to 
15,000 records per day. We are matching that at about a 98 
percent rate to their entry record into the United States.
    Next year we will be expanding that to include all 
travelers going back and forth from the border. So it is a very 
cost-effective and practical way to do it.
    Canada, unlike the comparison to Mexico, Canada does do, 
you know, almost 100 percent of recording and querying of 
travelers entering Canada at the land border, much like we do. 
Mexico, not so much. They just don't have the infrastructure or 
the procedures or policy in place to query every single 
traveler going into Mexico, much like we did 10 years ago. We 
were only querying about 5 percent of land border travelers 
through our databases and our watch lists and our National 
security files and recording that entry.
    Thanks to a lot of the actions of Congress to be able to 
fund us to implement the Western Hemisphere Travel Initiative, 
you know, that number is over 98, 97 percent now of travel held 
to query at the land border. So Canada implemented a similar 
process to query travelers so we can exchange that information.
    So the path forward with Mexico, we need to sit down and 
discuss with them and the choices are, do we build an exit 
infrastructure on our side of the border or do we work with 
Mexico to help them build their capacity entry into the land 
border? You know, I think there is--it is going to be huge cost 
either way we do it. You know, we will have to look at the pros 
and cons and the discussions with Mexico on, you know, what the 
feasibility is for them to be able to do it to replicate what 
we have done with Canada.
    Absent that, we would have to build a similar, you know, 
process as we have inbound on the U.S.-Mexico border to 
replicate south-bounds, but, you know, you are talking just if 
you just put technology in at the existing footprint I believe 
it is over a $500 million price tag to replicate that.
    The land border footprint for exit would nowhere near have 
the capacity to mimic an in-bound process. You are looking at 
tremendous amounts of capital improvement, expansion of the 
exit lanes, and when we talk about the 50 miles an hour, you 
know, cars will just take on the highway across the border. 
They will stop in Mexico but they are not stopping in the 
United States and then stopping again at a lot of the places.
    So there are some very, very significant challenges I think 
we need to address with Mexico to draw the same comparison to 
what we have got with Canada.
    Mrs. Miller. I appreciate that.
    Chairwoman now recognizes our Ranking Member, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Let me thank the Chairwoman.
    Let me also thank all of the panelists, witnesses, for your 
service. It is much appreciated.
    This is a time that Members raise questions but also engage 
in our reason for being and doing this work, and I value my 
Chairperson's comments and input because we work so well 
together. I agree that our responsibility and why we are 
joining in on this bipartisan bill that we have just introduced 
this week is the idea of securing the border. That means to 
keep the persons in the United States safe and to know who is 
in the United States. I take that as a given.
    As I listen to the numbers of returning persons, some 60 
percent would be foreign individuals or noncitizens. Maybe in 
those noncitizens would be returning U.S. military personnel, 
many of whom are not yet citizens but are willing to sacrifice 
their lives for this Nation.
    So my earlier point stands: We are long overdue with a 
comprehensive approach to immigration reform, which means that 
we would have such elements as a strong border security effort. 
I think what we passed in Homeland Security makes that 
statement, and so I hope that we will see comprehensive 
immigration reform moving forward because people are concerned, 
lives are concerned, and this Congress has fiddled around too 
long with comprehensive immigration reform. Piecemeal approach 
may not be the most effective approach because it does not 
answer some of the concerns that have been expressed by the 
very groups that we and people that we represent.
    So I am just hoping that as we move this legislation, very 
forward-thinking legislation, along that I make it very clear 
that I am not stepping away from the responsibility of this 
body to have comprehensive immigration reform now, now, and 
now.
    Mr. Wagner, let me ask you, you have been given this 
mandate or your other entities have now moved into your agency 
in the Department of Homeland Security--it was somewhere else 
before in the Citizens Services--this issue of a biometric 
effort. What is your honest opinion as to how long it will take 
for CBP to identify a cost-effective biometric and how long it 
would take you to get it in process?
    As the Chairwoman said, we are about 12 years or I know 
2004, it is about 8 years--12 years away from 2001 but 8 years 
away from the mandate in 2004. Help us understand whether any 
legislation that we pass here in the Congress is going to move 
CBP, now handed this responsibility, any faster along.
    Mr. Wagner. Thank you for the question. You know, we are 
working with the Science and Technology branch, a part of DHS. 
We are building a test facility in January or February 2014 
that we will spend calendar year 2014 evaluating different 
biometric approaches to doing this and, more importantly, also 
where is the right part in the process to put those biometrics. 
You know, we want----
    Ms. Jackson Lee. Can I stop you for a moment?
    Mr. Wagner. Yes.
    Ms. Jackson Lee. Mr. Wagner, you know I appreciate your 
service very much. Didn't you already have a pilot process 
previously?
    Mr. Wagner. We have piloted, along with DHS, some different 
approaches to doing this. We had officers with hand-held 
devices collecting fingerprints. You know, that is about a $3 
billion solution to be able to do that. That is something, yes, 
we could do, you know, provided we had the funds and the 
staffing to do that.
    But we really want to make sure we have got a process in 
place that gives us the assurances the person got on-board the 
plane and left the country. When we looked at the old pilots we 
had done years ago with just the kiosk, you know, a traveler 
can go up there, register their fingerprints, and then leave 
the airport. Then you are defaulting back to the biographic 
system of relying on the APIS manifest from the airline to 
determine whether or not the person actually got on-board the 
plane and didn't swap boarding passes with someone else, which 
is a real risk.
    You know, we don't want to just, you know, spend all this 
money and create a process that at the end of the day it is 
really only marginally better than the biographic system we 
have in place today. So we want to take a very deliberate and 
structured approach to testing the different technologies and 
coming up with the concept of operations on where do you put 
this right; what is the right technology and where do you put 
it at the right place in the process that give us the 
assurances that this is a meaningful and deliberate effort that 
we can do it? That is really where the challenge with us lies.
    So we will spend next calendar year looking at and 
developing these things. We do want to run a pilot. We are 
projecting the middle of 2015 to be live at a mid-size airport 
and piloting some type of biometric exit.
    I would think later on, then, in 2015 we will be able to 
come back to you with an implementation plan and schedule and, 
most importantly, what are the costs to be able to do----
    Ms. Jackson Lee. I don't want you to use what does not 
work, but can you state for the record that DHS and your 
particular sector in particular, is there a sense of urgency, 
and so when you talk about the piloting process and testing, is 
there that sense of urgency, No. 1, to get the best product, 
which is what you are telling me and we appreciate your 
expertise, but that this is really urgent and that Congress 
really wants you to engage in this?
    Mr. Wagner. There is absolutely a sense of urgency for us 
to do this. We want the biometrics. As law enforcement officers 
we want these biometrics. We want as many sources of data as we 
can run people through to support our law enforcement and 
National security mission.
    Make no mistake about that. We want to get it. But we want 
to do it in a way that we don't shut down or gridlock air 
travel and end up risking losing that authority down the road 
because we didn't implement it properly.
    So we want to be very deliberate about how we do this and 
do it in a structured approach. But yes, absolutely. There is a 
sense of urgency for----
    Ms. Jackson Lee. If Congress added to this initiative, 
border security, a comprehensive approach to immigration 
reform, would that help you as well?
    Mr. Wagner. How so? Not quite sure I understand----
    Ms. Jackson Lee. If we passed a comprehensive immigration 
approach legislation along with what we are discussing today, 
along with border security, would that help as well?
    Mr. Wagner. Well, it would certainly help for us to look at 
what would the costs be and the structure be to be able to do 
this and some clarity on what, you know, a new comprehensive 
immigration system would look like, what changes would be. But 
it certainly would--it could help us.
    Ms. Jackson Lee. Mr. Woods, how many people have you--ICE 
has deported?
    Mr. Woods. Annually we deport about 400,000 individuals.
    Ms. Jackson Lee. Is that a higher number than you have had 
in the past?
    Mr. Woods. Yes.
    Ms. Jackson Lee. How would this system improve the ability 
to be fair in your system? As you well know, there are 
certainly concerns of deportations, but how would this help 
your system?
    Mr. Woods. The biometric exiting?
    Ms. Jackson Lee. Yes.
    Mr. Woods. Yes. Biometric exits, like Mr. Wagner said, 
would give us more data to look at and determine and identify 
those individuals who have overstayed their terms of admission 
so we can better find out the individuals we want to look for 
and to apprehend and deport from the United States, as opposed 
to, as the Chairwoman said in her opening statement, chasing, 
using our scarce resources to chase people that are ghosts that 
may have already departed, so with a system attaining more data 
but not necessarily reduce the number of overstays.
    Ms. Jackson Lee. I thank the Chairwoman.
    Mrs. Miller. Thank you very much.
    Chairwoman now recognizes gentleman from Pennsylvania, Mr. 
Barletta.
    Mr. Barletta. Thank you, Madam Chairwoman. I want to thank 
you for calling this hearing. This has been something that has 
been very important to me since I was a mayor back in 2006, 
dealing with the problem in my city, which really shined a 
light on the fact that our problem with illegal immigration 
isn't just people crossing the Mexican border. We saw that 
first-hand.
    In 1996, I am going to direct this to Mr. Wagner, in 1996 
Congress passed a law calling on Congress to collect biometric 
data. DHS now maintains that they have a plan underway by 2016 
to report to Congress on the cost and benefits. That is 20 
years to come up with a report on the costs and benefits.
    Fourteen other nations have already done this. In fact, New 
Zealand is on their second generation of technology.
    You know, back in 1961 John F. Kennedy challenged America 
by saying that we would set a goal to send a man to the moon 
safely before the end of the decade. Today it is going to take 
us 20 years to report to Congress a plan on the costs and 
benefits. I just wonder what John F. Kennedy would say today if 
he was sitting on this committee.
    Could you tell me why it has taken so long when we know for 
a fact that visa overstays is the preferred entry into this 
country by terrorists?
    Mr. Wagner. Well, thank you for the question. The 
responsibility for this was assigned to Customs and Border 
Protection this past April, you know, and we are pursuing a 
plan to be able to do that. It is a very complicated system.
    We have worked and implemented the biometric inbound part 
of that. We have supported that with the biographic capability 
to know who is leaving via commercial air and sea. We have made 
great progress on the Northern Border with the biographic 
approach for travelers, you know, leaving the United States 
into Canada, which I talked about earlier.
    But it is a very complicated system. You know, we have run 
pilots in the past, we have looked at, okay, you know--I have 
no doubt we can set up a system to collect biometrics and match 
them from a previous encounter. We do it every day today.
    State Department collects the biometrics when they issue a 
visa; couple weeks or months later we see the person arrive in 
the United States, we take their fingerprints again and we 
match them up. That is the easy part of it.
    It is where do you put it into that travel process that, 
No. 1, it is meaningful, and No. 2, we just don't shut down air 
travel because we backed up, you know, people--the line is so 
bad that the departures are delayed. Because really, if we 
don't put it at the right place in the process and we don't 
know that the person actually boarded the aircraft we have 
really only minimally improved the existing process we have 
today.
    Mr. Barletta. If I could just interrupt you, I understand 
that it is complicated. I am sure President Kennedy thought it 
was complicated to send somebody to the moon and bring them 
back when we didn't have a space program like that.
    We are the greatest country on earth. We can shoot missiles 
out of the sky. I am hearing that it is going to take us 20 
years because it is complicated to come up with a way when 14 
other countries have done so.
    Center for Immigration Studies said that a system would 
cost us $400 million to $600 million in the first year, but DHS 
said that it could cost as much as $9 billion over 10 years. 
Why the discrepancy in the cost from DHS's old study that is a 
5-year estimate to what Center for Immigration Studies 
declared?
    Mr. Wagner. Not sure what they are relying on but I think a 
lot of our costs were the personnel costs to have the officers 
out there with a hand-held biometric collection device at all 
departure gates to collect those biometrics from people doing. 
That is something, we could implement that fairly quickly and 
easily, but it has got a pretty tremendous price tag along with 
it.
    I don't know that the other study you are referring to, 
that they have looked at where do you put that technology to 
have some assurances the person actually boarded the aircraft? 
We could put it at the TSA security point. We could put it at 
the airline desk. We could put kiosks out there. But somebody 
could register their fingerprints and walk out of the airport. 
So what have we really improved in the process at that----
    Mr. Barletta. If I could ask a quick question of Ms. 
Gambler before my time is up. In 2012 the DHS Office of 
Inspector General issued a scathing report identifying 
potential fraud involving discrepancies between biographic 
information collected when a visa-holder exits and biometric 
information collected when they enter the United States. Yet 
Secretary Napolitano testified before this committee that she 
believed the biographic logging conducting by DHS is not the 
same as biometric but it is very close to the same.
    Ms. Gambler, do you agree with that assessment?
    Ms. Gambler. Congressman, I think at this point DHS doesn't 
have the information to be able to say what benefits they are 
getting out of biographic and how that compares to the benefits 
that could be gotten out of biometric. That is part of the 
process that DHS is going to be engaging in going forward with 
this assessment that they are planning to provide to Congress 
several years from now in terms of what benefits biometric 
would provide over biographic and at what cost. But at this 
point I am not sure they have the information yet to be able to 
say that.
    Mr. Barletta. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes Mr. O'Rourke, of Texas.
    Mr. O'Rourke. Thank you, Madam Chairwoman.
    The comments made by Ms. Gambler really struck home in 
terms of looking at the value of a biometric exit system versus 
the cost, and I think that cost can be measured in a number of 
ways; certainly what it costs to purchase that and maintain it 
and operate it, but also what costs communities like ours in El 
Paso, States like Texas, for whom Mexico is our largest trading 
partner, or our country, which has 6 million jobs tied just to 
U.S.-Mexico trade will endure if we increase wait times, if we 
waste an opportunity to capitalize on the trade that is already 
flowing there.
    So I want to ask Mr. Wagner, from our perspective in El 
Paso, the country's safest city 3 years in a row despite and 
maybe because of the fact that we are the largest binational 
community on the U.S.-Mexico border, at a time when we are 
spending $18 billion a year to secure that border, at a time 
that we are doing $92 billion in trade just through the ports 
in El Paso and yet we have wait times at those ports that in 
many cases can be measured in hours not minutes, and the 
Department of Commerce has estimated for every minute of 
additional wait time at a port of entry it costs the U.S. 
economy $166 million.
    I want to ask you: What is the best value we can expect for 
the limited resources that you have now? Do you want to spend 
that on a biometric exit system? Do you want to spend it on 
additional ports officers? Do you want to spend it on other 
technologies, processes, or concepts? How do we answer the 
question of value versus cost?
    Mr. Wagner. Thank you. Very interesting question. I think, 
you know, you are certainly well aware of, you know, what the 
administration has put forth in the fiscal year 2014 budget 
proposal. We had the workload staffing model, which, you know, 
as you mentioned, indicated a need for 3,811 CBP officers just 
to handle our existing work today.
    We are very cognizant of the wait times. We recognize the 
cost to the economy that wait times bring. You know, we also 
recognize the costs of a terrorist incident, what that is going 
to bring. So, you know, we take both of those issues very 
seriously.
    You know, as we look at what is the value of adding 
biometrics to an entry-exit process, tremendous value on the 
in-bound piece. You know, I think we have to look at what value 
it brings on the exit piece. We absolutely want the data. We 
want to run our queries on that. We want the assurances it is 
the same person.
    But if you are looking at keeping America safe linking to 
terrorist travel, you know, I think your biographical 
information is really where a lot of the basis of your National 
security checks are going to be. I think you have very few 
biometrics associated with the terrorist records that we do 
have.
    I think it helps us identify it is a person and then the 
same person, but if you are looking at the National security 
implications of a fingerprint record, your biographicals are 
really where the true value is at. It is the basis of all our 
National security checks now, both internationally and 
domestic; it helps us identify the risks of who is flying 
internationally and domestically; it helps us draw the links 
between different people.
    The biometrics help us confirm who that person is or, if we 
have seen them before, it is the same person again. But if you 
look at the cost of implementation in a place like El Paso, I 
don't know that there is a biometric technology right now that 
could allow us to check vehicles leaving the United States in a 
way that wouldn't back that traffic, you know, up even more 
considerably than it is now. So it would be very, very 
difficult for us to do. It is something we are going to look 
at, but it really needs careful study and probably, you know, a 
lot of improvements in the existing technology to be able to do 
it.
    Mr. O'Rourke. Thank you.
    For Ms. Gambler, one of the memories that I think looms 
large for this committee and certainly for me in making any 
decision on a biometric exit system was our failure with 
SBInet, where we spent hundreds of millions of dollars on a 
border security technology boondoggle, which is really a 
homeland security contractors gone wild, where they were 
defining the scope and running the project, and it didn't make 
our country any safer, and it made us hundreds of millions of 
dollars poorer as a result.
    What is your advice to us? You said that there is going to 
be an evaluation framework that is scheduled to be published by 
June 2014. Will that framework, do you think, answer the value 
versus cost issues and allow us to make sure that we are making 
an informed decision and that we are using taxpayer money 
wisely, protecting the homeland, and not entering into perhaps 
another boondoggle?
    Ms. Gambler. Thank you. The evaluation framework should do 
a number of different things, but in part, lay out the 
methodology that the Department will use to assess the cost and 
benefits of the various options that it will be testing and 
looking at for a biometric air exit system.
    I think going forward, in terms of implementation of a 
system, whatever comes out of that testing, it will be 
critically important for the Department to implement that 
system in an efficient and effective manner and, you know, in 
part they could do that by looking at some of the past 
recommendations we have made related to the progress they have 
made on biometric in the past. Those things include, for 
example, having reliable schedules that define what they want 
to accomplish in what time frames and then being held 
accountable to those schedules, thinking through and evaluating 
what the different options are and testing all of the 
requirements that you will have for the system.
    So those types of things, those types of actions would help 
the Department implement any testing in an effective way, but 
also the system, as well.
    Mr. Duncan [presiding]. Thank you.
    Chairwoman Miller had to step out, so I will recognize 
myself for 5 minutes.
    I appreciate her having this hearing today. I think it is 
very important, as the gentleman from Pennsylvania has really 
been beating the drum over the last 6, 8 months, even into the 
last Congress, about visa overstays. The statistics that I have 
seen show that roughly 41 to 49 percent of all illegal aliens 
in this country are people that did not walk across our 
Southern Border, our Northern Border, or hop off a merchant 
ship somewhere; they came into this country with a permission 
slip. They came with a visa. So if I use the numbers of there 
are 12 million illegal aliens in this country, that tells me 
that roughly half, or almost 6 million of those, are visa 
overstays.
    Mr. Wagner, some of the data I showed may have come from 
Ms. Gambler, but ICE made 1,374 arrests in 2012; 1,374 is a far 
cry from 6 million. It is a huge problem. I think that is why 
it is so important.
    When I also see that ICE is expending only 3 percent of its 
resources for chasing down visa overstay based on the written 
testimony, that raises awareness and concern from me that maybe 
we are not putting enough effort toward the visa overstays. So 
the question, the first question I have for you is: What is the 
process for someone to get a visa to enter this country?
    Mr. Wagner. Well, I mean, it is Department of State that 
issues that visa, and I would really have to defer to State 
Department to explain, you know, the different types of visas 
and the different requirements to get them. But, you know, in 
general they would have to show that they intend to comply with 
the terms of what that visa allows them to do, so if it is a, 
say a general tourist visa, you know, they would have to show 
that they are coming to visit, that, you know, they have a 
residence and employment they don't intend to abandon in their 
home country, and really that they are not a security risk, and 
there are certain security things that have to be reviewed, you 
know, but essentially, are they going to comply with the terms 
of what that visa allows them to do?
    Mr. Duncan. Do they generally have a interview in a 
consulate or an embassy?
    Mr. Wagner. They interview them; they collect their 
fingerprints. When the person arrives in the United States we 
will evaluate, you know, a similar set of circumstances.
    We will match the fingerprints to those taken by Department 
of State. You know, we will ask people about the purpose and 
their intent of travel. We will make sure they have a return 
ticket that is within that time frame. You know, it is a risk 
assessment, at the end of the day, that the person is going to 
comply with the terms of that.
    You know, if we see any indications that make us believe 
the person is going to overstay or not request a legal 
extension of doing that we will deny them entry into the United 
States and----
    Mr. Duncan. Well, just in the essence of time, so we have 
gotten the correct spelling of their name, we have gotten a 
fingerprint, probably taken a photograph, they have had the 
interview at the consulate or embassy, we know a lot of data, 
we know what they are coming to this country to do, probably 
know their destination, whether it is a hotel, a family 
members' address, we have got an address of some sort on that 
person. We know the date they are entering, and we have given 
them terms of a visa, of what they can come to this country 
for. So we have given them a permission slip, correct?
    Mr. Wagner. Yes. Absolutely.
    Mr. Duncan. Okay. This is low-hanging fruit. This is low-
hanging fruit as we talk about immigration reform that we don't 
start pursuing some of these visa overstays and dealing with 
almost half of the illegals that are in this country because it 
is not like we are chasing a footprint in the desert trying to 
figure out who that was, what they look like, get a data, a 
name, where they were going. No, we know a lot about these 
folks. So why not go knock on the doors?
    I think you guys have a tremendous number of resources and 
maybe that is something we need to look at, but 1,374 arrests 
in 2012 out of roughly 6 million visa overstays is abysmal.
    Let me ask you this: What are other countries doing? When I 
travel, I have been to Japan; I have had to give a thumbprint; 
they knew when I left and when I entered; in Europe, as well. 
So you mentioned earlier it is a $3 billion program to come up 
with this biometric data system. Have we reached out to 
countries that are friendly to us in the world that are 
actually doing something and doing it successfully?
    Mr. Wagner. Sure. A lot of other countries set up their 
transportation system to have a discrete departure process, and 
they replicate their in-bound process with an exit process, and 
you will get interviewed by a border control officer before you 
leave that country. Our airports and transportation systems 
were not designed or set up that way and we certainly, you 
know, we have hundreds of airports in the United States that 
would have to be reconfigured at great cost not only to the 
physical footprint but to the operations of the airlines.
    Yes, the airlines leave from many different departure 
gates. We don't control their departure locations like we do 
in-bounds.
    You know, our system was set up to be an in-bound process 
but we do not have the kind of departure controls or even 
physical impediments or a physical footprint that would support 
us doing that, unlike a lot of other countries, like you 
correctly mentioned. They are set up and designed that way and 
when you do leave that country you get in line and you wait and 
speak to a border control officer, an immigration officer, and 
they stamp your passport with a departure stamp.
    Some countries keep track of that; some don't. Some of them 
are moving towards fingerprints and other biometrics at this 
point, you know, so there is--but we certainly talk to a lot of 
different countries on different ways to do that.
    We certainly, by and large, have the largest amount of 
travelers coming and going, and probably the largest amount of 
airports. If we were only going to do this at two or three 
airports like a lot of countries only have, it be a lot easier 
task than doing it at couple----
    Mr. Duncan. I agree with you that it is a monumental task 
but I also understand that international terminals are actually 
segregated or separate or you have to go in a certain area. So 
I don't believe the task is quite as immense as you may think.
    Mr. Wagner. But that is only for in-bounds. Departures are 
not leaving from the international terminals.
    Mr. Duncan. Okay. I will give you that one.
    Mr. Wagner. They are leaving from domestic gates and you 
don't go through a specific process at the airport through the 
international terminal to do that. You know, you can----
    Mr. Duncan. If your flight is originating from an 
international terminal like Atlanta and you are getting on an 
international flight it is a little different but I am not 
going to speak for the entire country and all airports. If you 
are going from one domestic city to the next and then getting 
on an international flight in another terminal, I understand 
that.
    I agree with you, it is an immense task. But I think it is 
something that we need to continue talking about, and I think 
that has been brought up several times here today.
    So my time is expired and I believe I will recognize the 
gentleman from Utah, Mr. Stewart, for 5 minutes.
    Oh, he is gone?
    So, Mr. Smith, Chairman, you are welcome to ask questions 
for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. I will thank you and 
the other----
    Mr. Duncan. I apologize. I am going on Candice Miller's 
list and Palazzo was next on the list and she has him marked 
off, so I am going to recognize the gentleman from----
    Mr. Smith. Be happy to defer to Mr. Palazzo.
    Mr. Palazzo. Chairman Duncan, you put me in a precarious 
position. He is the Chairman of my other committee, which I 
serve as his subcommittee Chairman----
    Mr. Duncan. I am going to let you guys work that out. You 
have got 5 minutes.
    Mr. Palazzo. Sure. Okay. Fantastic.
    Ms. Gambler, quick question: In 2012 the DHS inspector 
general issued a report which showed that there were 
significant discrepancies in the different ICE databases. Would 
a fully implemented biometric system, compared to the 
biographical exit system we have now, reduce the number of 
fraud cases?
    Ms. Gambler. A biometric exit system would help confirm the 
identity of individuals leaving the country. It would help, 
most likely help on ICE's data matching, as well, and could 
help reduce the risk of fraud that someone could make it appear 
fraudulently that they left the country when they really did 
not.
    Mr. Palazzo. Twelve years after 9/11 what seems to be the 
problem coordinating these databases? Have we gotten to the 
point to where we can overcome that? What are the plans to do 
that?
    Ms. Gambler. ICE has made some changes to some of the 
connections and integrations between its different databases in 
the spring earlier this year, and while those are positive 
steps, what we have reported is that DHS hasn't assessed the 
improvements that it has gotten out of those enhanced 
connections between the databases in terms of being able to 
identify potential overstays and report overstay rates, as 
required by statute.
    Mr. Palazzo. Thank you.
    I was hearing some numbers tossed around and I can't 
remember if it came from up here or if it was down there. What 
is the estimated cost over the next 10 years if we were to 
fully implement an exit biometric system? Did you all provide 
that?
    Mr. Wagner. I think we were discussing the $3 billion 
figure for airports departure based on some of the previous 
pilots that we ran. It is not inclusive of land border.
    Mr. Palazzo. Okay, so, because Secretary Napolitano said $3 
billion would be the low end and like $9 billion would be the 
high end.
    Mr. Wagner. Right. I believe that was just for air and sea. 
I don't believe that included the land border, but I will have 
to verify that.
    Mr. Palazzo. All right. Because I am curious, does anybody 
out here have a statistic--we know--I mean, there are a lot of 
numbers when it comes to immigration that are tossed around. 
But it is estimated that 11 million to 12 million illegal 
immigrants are in the United States at any one time; 40 percent 
of those are visa overstays, which the Chairman was pointing 
out, I mean, we are basically giving them a permission slip and 
we should be able to go find them readily, easily.
    So if 4.5 million of those overstay, well I guess my 
question is: Do you all have a statistic on how much those 11 
million or 12 million illegals cost the United States 
Government annually? Surely you all read the papers or you have 
internal reports that you could share with us that, you know, 
or just what you think.
    Okay. Well fortunately we do try to research that. They say 
it is $100 billion a year that those 11 million or 12 million 
illegal immigrants cost the United States taxpayer a year--$100 
billion.
    When I saw--when I look at your request for anywhere from 
$3 billion to $9 billion and you are looking at 40 percent of 
those illegals are actually visa overstays, that means almost 
$40 billion to $45 billion a year is the cost to the U.S. 
taxpayer. So I do think this is a good investment. Now I know 
that we are talking and I think Congressman O'Rourke was 
asking, you know, what are your priorities; port security, you 
know, land, and all this? We have got to make some choices.
    But I do think, 10--you know, anywhere from $3 billion to 
$9 billion to fix a $40 billion problem is a good business 
decision.
    So I would also like to just ask you, you mentioned 
something about our relationship with Mexico, Mr. Wagner. Can 
you kind of, I am running out of time, but kind of describe it? 
Are they cooperating with our efforts on the border, or what 
can we do to, you know, try to improve that?
    Mr. Wagner. We have an excellent relationship with the 
government of Mexico. We have done a lot of great work with 
them over the years.
    I think it is assessing what their current process is and 
what their current infrastructure and footprint is and, you 
know, what would be even a reasonable, rational ask for them to 
work with us on. But we have an excellent working relationship 
with them and exchange of information and cooperation.
    Mr. Palazzo. That is good to hear. I also hear that Mexico 
is actually increasing border security on their Southern 
Border, you know, because they recognize that once drugs or 
weapons or human trafficking is actually in Mexico it is going 
to find its way to the United States. It is just the element; I 
guess the criminal element there is just so well-organized. Are 
we doing anything to help Mexico enforce their southern 
borders?
    Mr. Wagner. We have got a lot of work going on with them. 
We got a, you know, similar agreement that was mentioned 
earlier with Canada, Beyond the Border. We have got a similar 
arrangement with the government of Mexico that we are working 
through a lot of different areas, that being, yes, being one of 
them.
    Mr. Palazzo. Thank you. I yield back.
    Mr. Duncan. All right. The Chairman will recognize the 
gentleman from Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman. I am going to try to 
make Mr. Palazzo feel a little bit better on the cost to start 
with.
    Your pages of the DHS testimony are not numbered but as I 
read on Page 3 you mention the $3 billion for the air and sea 
ports. Then you say correctly in the footnote, No. 2, there are 
emerging biometric technologies now available in the market 
that were unavailable at the time of the pilot.
    The $3 billion figure is from 5 years ago. There have been 
a lot of technological breakthroughs since then and the most 
recent estimate I have seen on the cost brings it down from $3 
billion to $500 million to $600 million, a considerable 
difference. Part of that is because the time spent per person 
has been reduced from about 66 seconds to 20 seconds, and that 
might account for some of the reduced cost, so it is a lot less 
than we might have thought.
    A question that DHS has been asked during the course of 
this hearing repeatedly is: Why don't we know the number of 
visa overstayers? In point of fact, the DHS is supposed to have 
been reporting those, as Ms. Gambler reminded us, every year. 
During this administration I don't believe they have reported 
it one time.
    To me, the fact that you all haven't bothered to make the 
estimates, haven't tried to make the estimates but we hear they 
may get our first estimate in 4 years at the end of this year, 
it may be the best reason I have heard so far for implementing 
an entry-exit system as soon as possible.
    I guess the first question I have, and I am a little 
frustrated because it was my 1996 bill that includes the entry-
exit system and that is the reference to a lot of what we are 
talking about here today; but what has this administration been 
doing in the last 4 years, and Mr. Woods, we will start with 
you, to implement an entry-exit system? I know in 2009 the 
Appropriations Committee gave you $2.5 billion to implement an 
entry-exit system and to my knowledge those funds were not used 
fully to do that. So what have you been doing in the last 4 
years?
    Mr. Woods. Over the last couple years we have been making 
many technological enhancements to our integration between DHS 
systems. There are varied systems within DHS, you know, but do 
not speak to each other for many years, and getting over that 
hill was very arduous. But we had to bring together CBP, CIS, 
ICE, and the main department and US-VISIT to come to the table 
and put out all our money on the table that we got from the 
Congress for each individual component to make these systems--
--
    Mr. Smith. I understand that, but you have had, not only 
have you had 4 years to do that, today I hear you all say, ``We 
are going to study it for another 3 years.'' Thank goodness for 
Ms. Gambler who said she would like to move up that deadline 
from 2016 to 2014, and I totally concur with that.
    But 7 years of studies to try to fully implement this 
program, I know it is complicated but we have also heard 
testimony today about other countries having successfully done 
things. I heard today about the problems at the airports, but 
now we have hand-held boarding pass, passport readers, mobile 
biometric devices, and so forth that have been used in the 
European Union, United Kingdom, Ireland, France, and Australia. 
I don't know why we can't use those same kind of biometrics. 
You have got London's Heathrow incorporates the biometric self-
boarding technologies now.
    It seems to me we might actually want to try to catch up 
with other countries and perhaps even lead the pack when we 
have so much at stake and so many individuals in this country 
we can't keep track of and don't know who they are.
    I am going to jump ahead to Ms. Gambler.
    I just mentioned, I thank you for saying that we could and 
that we should expedite the entry-exit system and try to start 
implementing it by 2014. I want to go to the difference real 
quickly about biometrics and biographics. I know you are not 
prepared to issue sort of a final study on that, but as I 
understand it with biographics, is it not true, as I see it, 
that it is almost an open invitation to fraud because with 
biographics alone you don't know if the same person who came in 
is actually exiting. Somebody could pass on the paperwork and 
someone else could use that paperwork and therefore you end up 
with both ID theft and fraud.
    Is that not a, without coming to too many conclusions, is 
that not a problem with biographics?
    Ms. Gambler. It is a vulnerability that someone could make 
it look as if they departed the country when they hadn't----
    Mr. Smith. Correct.
    Ms. Gambler [continuing]. Through fraud. For example, 
somebody could pass through screening process at an airport and 
be on a passenger manifest and then when they get into the 
secure area of the airport, give their boarding pass to someone 
else and then they could leave the airport. Now, the magnitude 
of that problem is unknown but it has been identified as a 
vulnerability certainly by CBP.
    Mr. Smith. Okay. Thank you very much.
    I know, Mr. Chairman, my time is up, but let me just say 
that it doesn't appear to me that the Department of Homeland 
Security is really engaging in a serious or sincere effort to 
implement the entry-exit system. In one sense, and I am sorry 
about this, it is no surprise. The administration has either 
not enforced or undermined any number of immigration laws, and 
as far as I am concerned, this is just another one.
    I yield back.
    Mr. Duncan. I thank the Chairman of the Science Committee.
    I want to thank the witnesses for their valuable testimony 
today and the Members for their questions.
    Members of the committee may have some additional questions 
for the witnesses and we will ask you----
    Ms. Jackson Lee. Chairman?
    Mr. Duncan [continuing]. To respond to these in writing.
    Yes, ma'am.
    Ms. Jackson Lee. Mr. Chairman, let me add my appreciation--
I didn't want you to gavel down before it. I think Mr. Palazzo 
asked a very important question. It may not be the topic of 
these individuals, but let me reframe his question, and I think 
it is appropriate to answer for this committee.
    Is the amount of money that would be generated by the 
documenting of the perceived number of 11 million which will 
come about from comprehensive immigration reform? So I am going 
to put that on the record because I think that to balance what 
these undocumented may be costing, there are great 
documentation as to what the investment would be on the basis 
of their work, taxation, and their overall input into the 
consumer economy, which would be in the trillions of dollars. I 
stand corrected if it is not, but I want them to answer: What 
would be the return to the Government if that was to occur?
    I yield back to the gentleman.
    I thank the witnesses for their testimony.
    Mr. Duncan. Pursuant to rule 7(e), the hearing record will 
be held open for 10 days. Without objection, the committee will 
stand adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
